<html>
<title> - ONDCP'S FISCAL YEAR 2010 NATIONAL DRUG CONTROL BUDGET AND THE PRIORITIES, OBJECTIVES, AND POLICIES OF THE OFFICE OF NATIONAL DRUG CONTROL POLICY UNDER THE NEW ADMINISTRATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
     ONDCP'S FISCAL YEAR 2010 NATIONAL DRUG CONTROL BUDGET AND THE 
  PRIORITIES, OBJECTIVES, AND POLICIES OF THE OFFICE OF NATIONAL DRUG 
              CONTROL POLICY UNDER THE NEW ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON DOMESTIC POLICY

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 19, 2009

                               __________

                           Serial No. 111-154

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                     http://www.oversight.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
65-545                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1e796e715e7d6b6d6a767b726e307d717330">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
WM. LACY CLAY, Missouri              TODD RUSSELL PLATTS, Pennsylvania
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
JIM COOPER, Tennessee                LYNN A. WESTMORELAND, Georgia
GERALD E. CONNOLLY, Virginia         PATRICK T. McHENRY, North Carolina
MIKE QUIGLEY, Illinois               BRIAN P. BILBRAY, California
MARCY KAPTUR, Ohio                   JIM JORDAN, Ohio
ELEANOR HOLMES NORTON, District of   JEFF FLAKE, Arizona
    Columbia                         JEFF FORTENBERRY, Nebraska
PATRICK J. KENNEDY, Rhode Island     JASON CHAFFETZ, Utah
DANNY K. DAVIS, Illinois             AARON SCHOCK, Illinois
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
------ ------

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

                    Subcommittee on Domestic Policy

                   DENNIS J. KUCINICH, Ohio, Chairman
ELIJAH E. CUMMINGS, Maryland         JIM JORDAN, Ohio
JOHN F. TIERNEY, Massachusetts       MARK E. SOUDER, Indiana
DIANE E. WATSON, California          DAN BURTON, Indiana
JIM COOPER, Tennessee                MICHAEL R. TURNER, Ohio
PATRICK J. KENNEDY, Rhode Island     JEFF FORTENBERRY, Nebraska
PETER WELCH, Vermont                 AARON SCHOCK, Illinois
BILL FOSTER, Illinois
                    Jaron R. Bourke, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 19, 2009.....................................     1
Statement of:
    Christopher, Gail C., Ph.D., chair, Panel on the Office of 
      National Drug Control Policy: Building the Capacity to 
      Address the Nation's Drug Problems, National Academy of 
      Public Administration; John Carnevale, Ph.D., president of 
      Carnevale Associates, LLC; Peter Reuter, professor, School 
      of Public Policy and Department of Criminology, University 
      of Maryland; and Robert B. Charles, president, the Charles 
      Group, LLC.................................................    57
        Carnevale, John..........................................    69
        Charles, Robert B........................................   118
        Christopher, Gail C......................................    57
        Reuter, Peter............................................    96
    Kerlikowske, Gil, Director, Office of National Drug Control 
      Policy.....................................................    12
Letters, statements, etc., submitted for the record by:
    Carnevale, John, Ph.D., president of Carnevale Associates, 
      LLC, prepared statement of.................................    71
    Charles, Robert B., president, the Charles Group, LLC, 
      prepared statement of......................................   121
    Christopher, Gail C., Ph.D., chair, Panel on the Office of 
      National Drug Control Policy: Building the Capacity to 
      Address the Nation's Drug Problems, National Academy of 
      Public Administration, prepared statement of...............    59
    Jordan, Hon. Jim, a Representative in Congress from the State 
      of Ohio:
    Information concerning injection sites.......................    41
    Prepared statement of........................................    10
    Various articles.............................................   128
    Kennedy, Hon. Patrick J., a Representative in Congress from 
      the State of Rhode Island, article dated May 19, 2009......    44
    Kerlikowske, Gil, Director, Office of National Drug Control 
      Policy, prepared statement of..............................    15
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................     4
    Reuter, Peter, professor, School of Public Policy and 
      Department of Criminology, University of Maryland, prepared 
      statement of...............................................    98


     ONDCP'S FISCAL YEAR 2010 NATIONAL DRUG CONTROL BUDGET AND THE 
  PRIORITIES, OBJECTIVES, AND POLICIES OF THE OFFICE OF NATIONAL DRUG 
              CONTROL POLICY UNDER THE NEW ADMINISTRATION

                              ----------                              


                         TUESDAY, MAY 19, 2009

                  House of Representatives,
                   Subcommittee on Domestic Policy,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m., in 
room 2154, Rayburn House Office Building, Hon. Dennis J. 
Kucinich (chairman of the subcommittee) presiding.
    Present: Representatives Kucinich, Cummings, Watson, 
Kennedy, and Jordan.
    Staff present: Jaron R. Bourke, staff director; Claire 
Coleman, counsel; Jean Gosa, clerk; Charisma Williams, staff 
assistant; Leneal Scott, IT specialist, full committee; Dan 
Blankenburg, minority director of outreach and senior advisor; 
Adam Fromm, minority chief clerk and Member liaison; Ashley 
Callen, minority counsel; and Molly Boyl, minority professional 
staff member.
    Mr. Kucinich. Good afternoon. The Subcommittee on Domestic 
Policy of the Committee on Oversight and Government Reform will 
now come to order. I'm pleased to be joined by our ranking 
member, Mr. Jordan of Ohio.
    Today's hearing will examine the successes and failures of 
current U.S. drug policy under the Office of National Drug 
Control Policy, and the priorities and objectives of ONDCP 
under the new administration, and how those goals are reflected 
in the 2010 fiscal year national drug control budget.
    Without objection, the Chair and the ranking minority 
member will have 5 minutes to make opening statements, followed 
by opening statements not to exceed 3 minutes by any other 
Member who seeks recognition. And without objection, Members 
and witnesses may have 5 legislative days to submit a written 
statement or extraneous materials for the record.
    We're here today to address the policy priorities in the 
2010 budget for the Office of National Drug Control Policy, 
which is now under the leadership of the newly confirmed 
Director Gil Kerlikowske. I would like to start by 
congratulating Mr. Kerlikowske on his confirmation. I'm 
extremely pleased that President Obama chose such a highly 
qualified individual for the job, and I truly look forward to 
working together.
    I would also like to reaffirm the majority's commitment to 
Mr. Jordan that we intend to work in a bipartisan fashion in 
overseeing the ONDCP and its ability to create effective policy 
to reduce drug use and its harmful consequences.
    I was pleased to read Director Kerlikowske's interview with 
the Wall Street Journal last week, during which he acknowledged 
that we need to abandon the metaphor of the Nation's, ``war on 
drugs.'' Clearly the war waged since the coining of the phrase 
by former President Richard Nixon has failed, but we need to do 
more than change the label. We must also change the policy. The 
current national strategy, which emphasizes incarceration and 
interdiction to reduce drug use and its harmful consequences 
has clearly failed. The United States ranks first in the word 
in per capita incarceration rates, with 5 percent of the 
world's population, but 25 percent of the world's prisoners. 
Roughly 500,000 people are behind bars for a drug law 
violation, and a racial disparity in arrest and incarceration 
numbers, largely a result of selective enforcement and Federal 
mandatory minimum sentences for crack cocaine, is unacceptable. 
And despite these record-breaking numbers, drugs have only 
become cheaper, stronger and more accessible in the United 
States, the largest consumer of drugs in the world.
    This record of failure is not tolerable and requires 
substantial reform. Despite promising statements by the new 
administration and you, Director Kerlikowske, the fiscal year 
2010 budget does not reflect a changed approach to fighting 
drug abuse. While there's increased emphasis on treatment 
programs, the spending allocated to supply side initiatives 
still vastly outweighs the demand-side programs.
    The 2010 budget actually widens the spending gap by 
allocating 65.6 percent of the budget to supply side 
initiatives and only 34.4 percent to demand-side efforts. As we 
will hear from our witnesses today, spending nearly $2 on 
supply side programs for every dollar on demand-side programs 
makes little sense considering the vast social scientific data 
showing that demand-side initiatives, especially drug treatment 
and prevention, are far more effective in combating drug use.
    Now, I understand, Director Kerlikowske, that you've not 
yet been--that you were not confirmed while this budget was 
being developed. Perhaps it does not reflect fully yours or the 
new administration's intended direction under your 
directorship. We'll need to hear from you today on that point.
    While we don't have time to evaluate every important drug 
policy issue here today a few warrant mentioning. First, our 
international supply side programs should be evaluated to 
ensure they're not doing more harm than good. I'm deeply 
concerned about the practice of aerial fumigation of coca crops 
in Central and South America, which is destroying the 
livelihoods of small farmers and is increasing the rate of 
rainforest destruction. Additionally, the Merida Initiative, 
designed to assist Mexico in its fight against drug 
trafficking, needs to be watched closely to ensure the United 
States is not fueling the violence by creating power vacuums 
when we help take out cartel leaders.
    Second, we cannot afford to concentrate so much of our 
effort on youth marijuana use at the expense of addressing the 
needs of addicts of harder drugs who are not getting sufficient 
treatment under the current strategy. In 2006, nearly half of 
all arrests for drug law violations were for marijuana, with 
nearly 740,000 for possession alone. Public leaders from all 
over the world and across the political spectrum are starting 
to call for a robust debate on whether legalizing marijuana 
would reduce drug-related crime and provide other benefits. On 
May 6th of this year, California Governor Arnold Schwarzenegger 
stated publicly that the discussion over whether to legalize 
and tax marijuana for recreational use in California would 
benefit from a large-scale study to show the possible impact of 
such a change. The El Paso, TX, City Council passed a 
resolution earlier this year urging Congress to consider some 
form of decriminalization or legalization as a way to undercut 
organized crime.
    As the Nation's leading drug policymaker, the ONDCP has an 
obligation to begin to study this issue. A good place to start 
is commissioning the National Academy of Sciences to examine 
available research and provide an objective overview of the 
risks and benefits associated with marijuana policies and 
marijuana use.
    Third, as the new administration has now recognized, the 
drug problem in the United States is a public health crisis, 
and drug policy should reflect a desire to reduce harms 
associated with drug use. According to the U.S. Centers for 
Disease Control and Prevention, 36 percent of AIDS cases in the 
United States can be traced back to intravenous drug use. The 
ONDCP cannot afford to ignore the strong scientific consensus 
that needle exchange programs are effective at reducing the 
transmission of HIV without leading to more drug abuse.
    I'm going to submit the rest of this statement of mine for 
the record and now go to the ranking member, Mr. Jordan, so you 
can get your statement in, and then we'll come back after the 
vote.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T5545.001

[GRAPHIC] [TIFF OMITTED] T5545.002

[GRAPHIC] [TIFF OMITTED] T5545.003

[GRAPHIC] [TIFF OMITTED] T5545.004

    Mr. Jordan. I'm going to thank the chairman, too, for the 
way he runs this committee and the way he keeps our side of the 
aisle informed. He does things in an honorable and professional 
way. And thank our witnesses for being here today and the other 
witnesses as well. And, frankly, Mr. Kerlikowske, thank you for 
your background, your service in law enforcement. We appreciate 
that as well.
    The new administration has signaled significant shifting of 
our Nation's drug policy. Rather than changing the laws on the 
books, in my view we need robust interdiction, diligent 
prevention, strong law enforcement and effective treatment.
    I'm troubled by Attorney General Holder's announcement that 
the Federal Government will no longer raid medical marijuana 
facilities in California. Marijuana is the drug most readily 
available to our youth. Reports indicate that almost any adult 
who enters a medical marijuana facility and complains of a 
headache can leave with marijuana and turn around and 
distribute that drug to any willing takers, including young 
people. Eighteen-year-old high school students can get a 
prescription for marijuana and have them filled at the 
dispensaries. It is my hope that the administration listens to 
the science, follows the law and uses common sense in enforcing 
regulations of these facilities.
    It also concerns me to read articles like the one in the 
Wall Street Journal where newly confirmed Director Kerlikowske, 
our witness, called for an end to the war on drugs, the, ``war 
on drugs.'' In communities across our district, I have seen the 
devastating effects that drugs like heroin and methamphetamines 
had on families and the crime that always results from this 
kind of drug use and drug abuse. Without proper enforcement and 
strengthening of existing laws, these tragedies will continue 
to occur. To suggest that the Government should turn its back 
on this issue is a failure to recognize the gravity of the 
situation or the right course of action.
    I'm also troubled by President Obama's stance on needle 
exchange that he articulated during the campaign. It is no less 
concerning to hear the new ONDCP Director voice his support for 
needle exchange programs, and I look forward to hearing you 
talk about that, and I'll be asking questions about that, 
Director. However, I've noticed that in the budget advance last 
week, there were no funds for needle exchange. I look forward 
to hearing again, as I said, Director Kerlikowske explain the 
administration's plan for such a program.
    While no doubt well intentioned, needle exchange programs 
do nothing but perpetuate deadly lifestyles and encourage 
further drug abuse. According to the Drug Free America 
Foundation, needle exchange program users are given clean 
needles, but are not required to turn in the dirty needles. The 
personnel of these centers refer users to rehabilitative 
treatment. Studies of needle exchange programs in Vancouver, 
British Columbia, did show--did not show, excuse me, did not 
show reductions in rates of HIV, hepatitis C and other 
infections, serious infections like MRSA. In fact, the opposite 
occurred; rates of infection actually rose.
    To conclude, the, ``war on drugs'' will not succeed unless 
we seek to destroy the drugs where they grow, stop the drugs at 
the border, and arrest those who deal and distribute drugs. We 
commend all of our law enforcement officers at the Drug 
Enforcement Agency, the Border Patrol and the Coast Guard. They 
play a vital role in these efforts.
    On the prevention and treatment front, we need to encourage 
families, churches, schools and communities to educate our 
citizens about the dangers of drug use.
    Director, I hope you will have the courage to pull the plug 
on programs that are not giving the taxpayers a return on their 
investment.
    I look forward to hearing from all our witnesses on efforts 
we can take to stop drug abuse, prevent drug crime and make 
sure that the families and communities have the tools they need 
to stay drug free. And I want to thank you again for your 
willingness to serve both in your past profession and this new 
responsibility, and your willingness to be with us here this 
afternoon.
    [The prepared statement of Hon. Jim Jordan follows:]

    [GRAPHIC] [TIFF OMITTED] T5545.005
    
    [GRAPHIC] [TIFF OMITTED] T5545.006
    
    Mr. Jordan. And I guess we're going to go vote; is that 
right, Mr. Chairman?
    Mr. Kucinich. Thank you very much, Mr. Jordan. The 
committee is going to recess for the vote.
    I've been informed by staff that we have three votes. My 
best guess is that we'll be back here in about a half hour. So 
let's resume at quarter to 3. Thank you for being here. And at 
that point we'll get into your testimony, Mr. Kerlikowske. 
Thanks to everyone here.
    [Recess.]
    Mr. Kucinich. Mr. Kerlikowske, it's the policy of the 
Government Oversight and Reform Committee to swear in 
witnesses, so if you would please rise.
    [Witness sworn.]
    Mr. Kucinich. Let the record reflect that the gentleman 
answered in the affirmative.
    All witnesses will have 5 minutes to make their statement. 
Your entire statement will be included in the record. So if you 
just want to give us highlights or whatever, that would be 
fine. And we are grateful for your presence here. You may 
proceed, sir.

STATEMENT OF GIL KERLIKOWSKE, DIRECTOR, OFFICE OF NATIONAL DRUG 
                         CONTROL POLICY

    Mr. Kerlikowske. Thank you, Mr. Chairman. With only 8 days 
on the job, I think the highlights----
    Mr. Kucinich. Is that mic on, staff?
    Hold on.
    Mr. Kerlikowske. With only 8 days on the job, I think 
highlights will be about all I could provide at this point. 
But, Chairman Kucinich, Ranking Member Jordan, distinguished 
members of the subcommittee, thank you for providing me an 
opportunity to appear before you today. And I believe very 
strongly in the benefits of collaboration and transparency and 
accountability. As chief of police for 9 years in Seattle, I 
enlisted that, the support of the entire community, to reduce 
crime. This approach in Seattle led to the lowest drug use and 
the serious crime rates in decline since 1967.
    I plan to employ a similar approach in my leadership of 
ONDCP, and I'll be guided by these principles in the 
development, articulation and implementation of an effective, 
comprehensive and coordinated national drug control strategy, 
but I will certainly need help. And I will rely upon Congress 
to provide its perspectives as we develop these policies.
    Thousands of Americans lose their lives each year because 
of illicit drug use. I am deeply troubled by the recent sharp 
increases in drug-related deaths. In the latest year for which 
drug data are available, 2006, overdose deaths surpassed 
gunshot wounds, and they now rank second only to motor vehicle 
accidents as a cause of accidental death in our country.
    Reducing fatal drug overdoses, particularly deaths 
involving controlled prescription drugs, is an urgent 
challenge. We know that the abuse and addiction are in the 
background of many other negative social consequences. There is 
no single approach. Prevention, treatment, enforcement and 
interdiction must all be priorities, and they are not mutually 
exclusive. This administration's approach to drug control will 
be comprehensive, and it will be evidence-based.
    Now, there's a perennial argument in this town over the 
drug control budget, and I think fresh thinking is required. 
That's why in my first week on the job I hosted meetings with 
experts in the prevention field representing both government 
and nongovernmental organizations to look at a fresh 
perspective on the United States' approach to prevention. These 
meetings will continue and will result in concrete proposals 
supported by data.
    I'm proud of the work of ONDCP's media campaign, and I know 
that the Drug-Free Communities program is an excellent 
investment, but it's time also to unearth the next great set of 
ideas in the field of prevention.
    The fiscal year 2010 budget summary that was delivered to 
you last week is focused on four major policy areas: substance 
abuse prevention, substance abuse treatment, domestic law 
enforcement and interdiction, and international counterdrug 
support, and it lays the foundation from which we will build. I 
have provided you greater detail about this budget in both my 
written testimony and also in the fiscal year 2010 budget 
summary that our staff shared with you last week. I'm sure 
we'll discuss this budget momentarily in great detail.
    I'm also sure that we'll discuss the National Academy of 
Public Administration Report that was recently released. I 
found the report to be thoughtful and productive for the most 
part. In my written testimony I provided details on the steps 
we are taking to address most of the recommendations in the 
report. But with respect to the recommendation concerning the 
office's budget oversight responsibilities, I have concerns. 
The use of such a process would be a detriment--would be 
detrimental to reducing the Nation's drug control efforts.
    In my view, Congress envisioned the Director of the 
National Drug Control Policy as a strong advocate for drug 
control funding. By the nature of this role, I am tasked with 
taking a proactive view toward drug control policy. Without 
ONDCP's current budget authorities, my ability to influence the 
outcome of critical resourcing decisions would be limited. I 
came to Washington, Mr. Chairman, to be the champion of 
intelligent and far-reaching drug policies. Adherence to this 
recommendation would handcuff me and those who succeed me.
    In 9 months we'll deliver the 2010 National Drug Control 
Strategy and the supporting fiscal year 2011 budget, which 
focus on the nature and the scope of the problems, as well as 
the policies and programs which will have the most meaningful 
impact. During my tenure we will focus on developing systems to 
monitor the progress we are making in our drug control efforts. 
We will be transparent about our progress; we will let evidence 
guide our policies. Importantly, we will be alert to new and 
emerging drug threats and provide leadership to address them as 
they arise.
    I also believe that if you can't measure it, you can't 
improve it; therefore, we must establish in short order 2- and 
5-year performance measures and targets for each strategy goal, 
reducing drug use, availability and consequences. The 
performance management system currently in place begins to 
assess the effectiveness of interagency efforts, but it is not 
comprehensive or systemic.
    ONDCP will assist in building a more fair and equitable 
criminal justice system by improving and increasing services 
for offenders with substance abuse disorders, including 
diversion programs such as drug court treatment services within 
correctional facilities and reentry programs. I will also work 
to improve collaboration between State and local law 
enforcement and Federal agencies. This will improve our ability 
to reduce trafficking in illicit drugs. State and local law 
enforcement have knowledge which needs to be communicated to 
local agencies to support their efforts. Task forces such as 
those supported by HIDTA----
    Mr. Kucinich. The gentleman's time is expired, but what 
we'll do is permit you time to wrap it up.
    Mr. Kerlikowske. Likewise, Federal agencies can do a better 
job. I want you to know, Mr. Chairman, that I appreciate this 
opportunity to come here early in my tenure, and I look forward 
to working with all of the members of the subcommittee as we 
move forward. Thank you.
    Mr. Kucinich. Thank you very much, sir.
    [The prepared statement of Mr. Kerlikowske follows:]

    [GRAPHIC] [TIFF OMITTED] T5545.007
    
    [GRAPHIC] [TIFF OMITTED] T5545.008
    
    [GRAPHIC] [TIFF OMITTED] T5545.009
    
    [GRAPHIC] [TIFF OMITTED] T5545.010
    
    [GRAPHIC] [TIFF OMITTED] T5545.011
    
    [GRAPHIC] [TIFF OMITTED] T5545.012
    
    [GRAPHIC] [TIFF OMITTED] T5545.013
    
    [GRAPHIC] [TIFF OMITTED] T5545.014
    
    [GRAPHIC] [TIFF OMITTED] T5545.015
    
    [GRAPHIC] [TIFF OMITTED] T5545.016
    
    [GRAPHIC] [TIFF OMITTED] T5545.017
    
    [GRAPHIC] [TIFF OMITTED] T5545.018
    
    [GRAPHIC] [TIFF OMITTED] T5545.019
    
    [GRAPHIC] [TIFF OMITTED] T5545.020
    
    [GRAPHIC] [TIFF OMITTED] T5545.021
    
    Mr. Kucinich. I would like to begin with the questions. Mr. 
Kerlikowske, can you elaborate on your comments to the Wall 
Street Journal that we should move away from the term ``war on 
drugs'' and discuss how you might prefer to describe efforts by 
law enforcement and others to prevent illicit drug use?
    Mr. Kerlikowske. Mr. Chairman, the words matter. When we 
talk about a war, we talk about wars on people. War limits the 
tools that we have. Most people look at war as being a war 
using the only tool is force. Someone once told me when the 
only tool in the toolbox is a hammer, every problem starts 
looking like a nail.
    I want to look at a more balanced approach. I know that my 
colleagues around the country, after my nomination was made by 
President Obama, have called me saying that they want to change 
the conversation. Not that enforcement and interdiction and 
source-country eradication are not important, but we need a 
more balanced, a more comprehensive, a more holistic approach.
    Mr. Kucinich. Now, numerous articles on your nomination as 
drug czar pointed out that in 2003, Seattle voters approved a 
measure making marijuana possession cases the lowest law 
enforcement priority. You opposed the measure at the time, yet 
said marijuana possession was already a low priority for 
Seattle Police. According to news reports, you abided by the 
prioritization law that Seattle voters approved.
    Did the initiative have any impact on violent crime or 
overall public safety one way or the other, or did it make a 
difference? And the second part of the question, do you agree 
with Governor Schwarzenegger that it's time for an evidence-
based study to examine available research and provide an 
objective overview of the risks and benefits associated with 
marijuana policies?
    Mr. Kerlikowske. In answer to the first question, Mr. 
Chairman, the initiative had no impact on the criminal 
justice----
    Mr. Kucinich. Could you put that mic a little bit closer?
    Mr. Kerlikowske. The initiative had no impact on the 
operations of the police department, nor on the operations of 
the criminal justice system. Personal possession of small 
amounts of marijuana by an adult in any large city police 
department, in fact, in most law enforcement agencies that I 
know of, is not a high priority. We figure out with finite 
resources, still wearing my police chief hat after 36 years, 
how to utilize officers and detectives in the best way possible 
to reduce violent crime, and we have priorities. So the 
initiative had no impact.
    I do not agree with Governor Schwarzenegger that it is time 
for a discussion on legalization. I do agree that approaching 
this problem from a public health, a sociological standpoint; a 
prevention, a treatment and an enforcement standpoint in a more 
balanced way does make sense.
    Mr. Kucinich. Well, if you talk about legalization, 
according to your own testimony here, in Seattle you had a de 
facto decriminalization by making it the lowest priority.
    Mr. Kerlikowske. No. We made arrests for marijuana. People 
were arrested. Actually several hundred people were arrested. 
What we're talking about here is how do you use finite 
resources, prosecutorial or police officers, in order to have 
the most effect on keeping people safe and protecting their 
property. Adults who possess a small amount of marijuana who 
are not trafficking or dealing is not a high priority for those 
finite resources.
    Mr. Kucinich. But what about the Obama administration's 
decision with respect to DEA enforcement at medical marijuana 
clinics in places such as California?
    Mr. Kerlikowske. The point I would tell you that I have not 
had an opportunity to sit down with the Attorney General Eric 
Holder. I have only read in some press report----
    Mr. Kucinich. Well, what's your position?
    Mr. Kerlikowske. What was said on the Drug Enforcement 
Administration enforcing those laws? The DEA also, I know, has 
finite resources. They go after the largest traffickers and the 
most violent traffickers. I do not think that the medical 
marijuana industry fits right now in that standpoint. It 
doesn't mean that they don't violate the law.
    Mr. Kucinich. OK. I'm going to go to questions from Mr. 
Jordan.
    Mr. Jordan. Thank you, Mr. Chairman.
    Again, Mr. Kerlikowske, thank you for being here today and 
for your willingness to serve and the years of service you've 
given the various communities as a law enforcement officer.
    I want to go to that same article that the chairman 
referenced, the Wall Street Journal article from last week. And 
I'm going to start with what they reported. And I understand 
that when you're reading from a news account, you don't always 
get the truth, so you'll get a chance to elaborate. But the 
Executive Director of the FOP, James Pasco, the largest law 
enforcement labor organization in the country, said that while 
he holds you in high regard, he said, police officers are wary 
of some of the things that have been attributed to you and to 
the new administration in this whole context of more focus on 
treatment, less focus on putting people who violate the law, 
the consequences of doing that and going after them, and he's 
quoted as saying, while I don't necessarily disagree with Gil's 
focus on treatment and demand reduction, I don't want to see it 
at the expense of law enforcement. People need to understand 
that when they violate the law, there are consequences.
    The article also points out that this administration, it 
says, is likely to deal with drugs as a matter of public health 
rather than criminal justice alone. Again, elaborate, and 
elaborate in the context of this, in light of what's going on 
on the Mexico border, what we're seeing, the violence there 
associated with drugs; elaborate on this kind of change in 
concept, or change in philosophy at least, that is articulated 
here and based on your answer to the chairman's kind of same 
line of questioning.
    Mr. Kerlikowske. Mr. Jordan, I go back and I would say that 
it's not an either/or proposition. And I couldn't agree more 
with Jim Pasco and the statement he made on behalf of the 
Fraternal Order of Police. You don't have to deemphasize or 
defund law enforcement in order to put further resources into 
treatment.
    Mr. Jordan. You say that you agree with his statement, but 
remember, he said police officers are wary of the very thing we 
just described in your position. So you can't agree with his 
statement when he says, we're nervous about this change in 
philosophy with a greater focus on, quote, treatment and not on 
putting the bad guys behind bars.
    Mr. Kerlikowske. Over many years of experience, I would 
tell you that every time there was a change in emphasis, law 
enforcement agencies who receive certain Federal funds would be 
concerned. There were a number of times in the previous 
administration that local law enforcement grants, etc., were 
either zeroed out or eliminated.
    What I would like to say is this is about being balanced, 
and about using the best tools, and about leveraging those 
finite resources together in a smart way.
    I would also say in reading the background in the last 
administration, this issue was also treated as a public health 
issue as much as a criminal justice issue.
    Mr. Jordan. Let me ask this when you're talking about 
public health. The President's stated position on the needle 
exchange concept, and talk about that, where you are personally 
on that issue, and do it in light of--I think if I heard your 
testimony right, you said overdose deaths surpass gun deaths, 
surpass everything except, if I caught it right, traffic--I 
mean, car accidents. So talk about where you are on this needle 
exchange idea.
    Mr. Kerlikowske. Those overdose deaths are primarily due to 
pharmaceutical--the abuse of pharmaceuticals.
    In answer to the question on the needle exchanges, it is 
seen as part of an overall public health issue. In the two 
cities where I've been, two large cities where I've been chief 
of police and we have had needle exchanges, they were not a law 
enforcement problem. And, in fact, the needle exchange in 
Buffalo actually took calls from neighbors and would clean up 
any needles that were disposed of inappropriately in some other 
place.
    Mr. Jordan. How about the data I cited in my opening 
statement about where you see increased infection rates, 
increased HIV, increased hepatitis where you have needle 
exchange programs?
    Mr. Kerlikowske. Mr. Jordan, I'm actually not familiar with 
the data from Vancouver, British Columbia, but I would be happy 
to examine it in greater detail and respond back to you.
    Mr. Jordan. OK. I got 30 seconds. Let me ask one other 
thing. How does your office--this is a practical question. I 
don't know, and short of research, how do you interface with 
Homeland Security specifically, thinking about what's going on 
on the southern border of our country; how do you at all, if at 
all, interface with Homeland Security?
    Mr. Kerlikowske. I know that a meeting is being scheduled 
very quickly with Secretary Napolitano and myself. I had a 
chance to speak with her. She's looking forward to asking ONDCP 
to be a part of this initiative. And frankly, we have that 
statutory role and authority to do that, and now that I'm in 
place, I'll work with her.
    Mr. Jordan. But I guess I'm asking, what's been the history 
of the organization you now head interfacing with Homeland 
Security? Do you know that? Can you give that to me?
    Mr. Kerlikowske. I don't know, Mr. Jordan.
    Mr. Jordan. OK. We'll research it.
    Thank you, Mr. Chairman.
    Mr. Kucinich. Thank you.
    The Chair recognizes Mr. Kennedy.
    Mr. Kennedy. Thank you.
    Welcome. I appreciate the Wall Street Journal article and 
what message you've sent at the outset of your tenure as drug 
czar. And I just want to take today's paper, May 19th, we're in 
today, my local newspaper in Rhode Island, as an example of why 
what you said is so important.
    The front page: Man is Killed, Officer Shot Within 30 
Minutes. More on this case, B4. You go to B4: Shooting Suspect 
Possessed Lengthy Criminal Record. Driving while impaired in 
1998, attempted breaking and entry. I'm sure that had nothing 
to do with him trying to supply himself with drugs. Then in 
2002, undergoes substance abuse counseling, receiving stolen 
goods. I'm sure that had nothing to do with his addiction 
again. 2003, violated and suspended sentence for drugs. 2004, 
suspended sentence, substance abuse counseling. 2005, 1-year 
suspended sentence, substance abuse counseling, domestic 
vandalism and assault.
    So here's one. That's just one story. That's the front 
page.
    The second front-page story is: Teen Facing Prison Over 
Boat Fatality. Teenager accused of striking and killing his 
friend on a boat in the Barrington River in 2007 took 
responsibility for his role in the death yesterday, Monday, in 
Superior Court. While boating, the 17-year old took 
responsibility for the death of Patrick Murphy after a day of 
boating with other teens on the river July 17, 2007. He faces 
over 5 years in prison.
    Then you turn to the local Metro section of the Rhode 
Island: Plea Deal Likely in Drunk Driving Case. David Hazard 
faces three felony counts in connection with April 7th 
accident, Route 12 situate that killed Foster woman. Killed the 
mother of six. Page 3: Hazard has a history of driving 
violations, including several in 1 year. At the time of this 
driving violation, he had been drinking and taking prescription 
medication.
    These are all written up as criminal. Clearly they are 
people who all have suffered from severe addictions. Maybe the 
kid, the teenager, you know, just had too many beers and was 
being a teenager out on the water, but even that raises issues 
of teen drinking. But 67 percent of the people that we arrest 
in this country at the time of arrest test positive for one of 
five drugs.
    What are we going to do--you said comprehensive approach--
to bring this further to light in this country? I mean, this is 
the elephant in the middle of the room. We're treating 
everybody who are committing these crimes as hardened 
criminals, when probably two-thirds of them after they've 
committed the crime don't remember what they did, and we've 
criminalized a public health problem in this country.
    No one says that they don't have responsibility for their 
actions, but can you talk to this issue for us and explain what 
it is that you think we can do so that these officers don't 
need to get shot, and these young people don't need to be 
killed, and these mothers don't need to be killed in drunk-
driving accidents because we are treating this as a health 
problem and not as a criminal justice problem? And maybe we 
could attack this from the front end rather than through the 
back end when it's too late and all the people are already 
killed. Maybe you could tell us maybe through the health system 
how we could attack this problem.
    Mr. Kucinich. The gentleman's time is expired, but given 
the gravity of your question, and, Mr. Kerlikowske, being head 
of this government function, please answer his question as best 
you can.
    Mr. Kerlikowske. Congressman, I know in talking to my 
colleagues they're as frustrated with the system. Treatment on 
demand. If someone wants treatment, there should be space, 
there should be capacity for drug treatment. If they come in 
for drug treatment in handcuffs, there should be space for them 
also. If they go to jail for their actions, they should get--
and they have an addiction, they should get treatment before 
they come back out on the street.
    Mr. Jordan. Mr. Chairman, can I?
    Mr. Kucinich. The gentleman's time is expired, but did you 
want to engage in this?
    Mr. Jordan. Mr. Chairman, you can cut me off if you want, 
but I think the gentleman from Rhode Island made the point. If 
I got it right, the first example he cited from today's paper, 
the guy had two counseling intervention sessions, had a lengthy 
record. It seems to me if we were focused on the law 
enforcement side of things, this guy may not have been on the 
street and may not have been able to do the harm he did to the 
officer. It sort of proves the point I was trying to make in my 
questioning. A law enforcement approach with that particular 
individual might have saved a police officer's life, it looks 
like to me.
    Mr. Kucinich. I thank the gentleman.
    Let's go to Mr. Cummings.
    Mr. Kennedy. If I could?
    Mr. Kucinich. Mr. Kennedy.
    Mr. Kennedy. The substance abuse counseling isn't substance 
abuse counseling. Substance abuse counseling is doing evidence-
based; am I right, Mr. Czar? And that means following what the 
physicians tell us works. Clearly what they're offering now 
isn't working because it's not following the evidence of what 
works and what doesn't. First of all, a number of times this 
fellow was in and out of----
    Mr. Kucinich. I thank the gentleman from Rhode Island. Mr. 
Kennedy----
    Mr. Kennedy. Well, the number of times this guy was in and 
out show that he wasn't even in long enough to benefit from 
counseling.
    Mr. Kucinich. Thank you, Mr. Kennedy.
    Because of the importance of this exchange, this little 
interplay, I think, is beneficial to the committee, and I 
appreciate the indulgence of other Members because that section 
took about twice the amount that we usually would, but this 
committee has that latitude.
    Mr. Cummings, you may proceed.
    Mr. Cummings. Thank you very much.
    Mr. Kerlikowske, it's good to see you. Welcome to your 
position. And I just have a few words.
    As I'm sitting here listening to what has been stated, and 
having been the ranking member over the drug subcommittee, I 
would ask that whatever you do, you try to do what is most 
effective and efficient. I'm tired of what has been going on 
with regard to the drug czar's office. Let me explain that to 
you.
    I think the way the drug czar's office is set up in the 
administration, I think it makes it very difficult, unless 
they've changed, for you to do your job--not just you, anybody 
in that position--because basically you're at the mercy of 
everybody else, as I understand it. Now, you may have changed. 
And so I think what happens is that there are things that you 
may want to do, but you got to have the cooperation of the 
other folk. And what I have found over the years is it seems as 
if the drug czar's office was not a stepchild, but a distant 
cousin. And so I'm hoping that this administration--and I am a 
big supporter of President Obama, I worked very, very hard for 
him, I'm one of those early supporters. This thing of dealing 
with drugs is very, very serious. And I think because drugs are 
considered in our society as a negative issue, a lot of times 
it's sort of put on--I don't want to say the back burner, 
because sometimes it's put off the stove.
    And so I guess what I'm trying to get to is I hope that you 
will look at some of the things that you've already talked 
about. The media campaign, let's determine whether that is 
truly effective and efficient, because if it's not, scrap it, 
let's go somewhere else and do something else.
    The whole idea of HIDTA, which I think is very important. I 
know you are familiar with HIDTA. I think HIDTA is very 
important. And I think in most instances it is effective and 
efficient because it gives your State, your local and your Feds 
a chance to work together and to learn from each other and, 
again, effectively use the limited resources that we he have to 
address issues.
    Another thing we need to look at is the whole issue of 
effectiveness of treatment. I do believe in my heart that--and 
we've seen it from testimony coming before this committee--
there were a lot of folks that would open up these mom-and-pop 
shops to give people so-called treatment, when, in fact, they 
weren't being treated at all. As a matter of fact, they put 
them in a position where they lost faith in treatment itself 
because they were not properly treated. So I hope you will take 
a look at that.
    And this whole thing of measuring, you're right. If we 
can't measure something, there's a major problem. And I don't 
know exactly what kind of tools you plan to use with regard to 
measurement, but we've got to be able to see where we're going 
and see if we are achieving something.
    I agree with regard to the war on drugs. We need to get 
away from that word ``war.'' These are our people. And let me 
tell you, I come from the city of Baltimore, and I'm inviting 
you to come to Baltimore to tour with some very interesting 
sights. I can tell you within five blocks of where I live, I 
can go and show you an open-air drug market where at around 7 
a.m., maybe 6:30, you've got hundreds of people literally 
selling drugs, a city, sadly, where out of 650,000 people, you 
got 65,000 addicts. But it's still a great city. But the fact 
is that it becomes much more difficult to govern, much more 
difficult to keep it, sustain it, when you've got that drain. 
And it is a drain, because you're trying to keep people afloat, 
and the money is like just going through a bucket with a hole 
in it.
    Now, I'm saying that's why I keep talking about 
effectiveness and efficiency. I know you've got limited 
resources. But, again, I hope you'll take all that into 
consideration.
    I see my time is about up, but I just wanted to get those 
comments over to you.
    Mr. Kerlikowske. Thank you.
    I spent a lot of time in Baltimore when Tom Frazier was the 
police commissioner and many of my other colleagues, and have 
visited. My wife did some research in Baltimore. I understand 
that huge heroin-addicted population and the difficulties. I 
believe that our staffs are scheduling probably the third visit 
that I'll make as drug czar, as Director of this office, will 
be to Baltimore, and I look forward to seeing and hearing more 
from your perspective.
    Mr. Cummings. Well, just make sure I'm there. I want to 
make sure I'm there.
    Mr. Kerlikowske. I understand.
    Mr. Cummings. Don't go when I'm somewhere else.
    Mr. Kerlikowske. I understand.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Kucinich. Let the Chair direct a followup question.
    Will you go to Baltimore, and will you be there with Mr. 
Cummings?
    Mr. Kerlikowske. I am planning on going to Baltimore, and I 
will be with Mr. Cummings.
    Mr. Kucinich. OK. Thank you.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Kucinich. The Chair recognizes the gentlelady from 
California Congresswoman Watson.
    Ms. Watson. Mr. Kerlikowske, did I get it right?
    Mr. Kerlikowske. Yes, ma'am.
    Ms. Watson. OK. Thank you.
    Does the Obama administration intend to lift the ban on 
needle exchange programs, and do you plan on funding these 
programs in your budget for the 2011 fiscal year?
    Mr. Kerlikowske. I can tell you that after just 8 days on 
the job, I have not delved into the needle exchange funding 
issue. I know it is not in this current budget, but I can tell 
you that I plan on making it one of my priorities to learn a 
lot more about this issue. And I will be more than happy to 
respond back as quickly as I can to you on that.
    Ms. Watson. We would appreciate it.
    And the United States with--I think this is 2 million in 
prison--has the highest rate of incarceration in the world, as 
you know. And over the past two decades, increasing numbers of 
Americans have been in prison for nonviolent acts driven by 
drug dependency. Furthermore, although experts have found 
little statistical difference among racial groups regarding 
actual drug use, African Americans account for 37,000--37 
percent of those arrested on drug charges, 59 percent of those 
convicted and 74 percent of those sentenced to prison.
    So how do you plan to implement a strategy that treats drug 
addiction as a public health issue rather than a purely 
criminal justice concern, and what policies do you plan to 
implement to alleviate the racial disparities associated with 
drug treatment?
    Mr. Kerlikowske. Right now we are in the process of putting 
together several things. The President's drug strategy, which 
will be delivered in 9 months, is one that we're formulating. 
We're also adding staff to the Office of National Drug Control 
Policy, including a Deputy Director who's been nominated by the 
President whose expertise is in treatment and not on the law 
enforcement side.
    Figuring out a way in which we can leverage all of our 
resources to treat this as a public health, a social policy 
problem and a criminal justice problem working together would 
have great benefit not only to the prison population and 
reducing that inordinate--those costs, but also to improving 
the safety and security of our neighborhoods and our streets. 
So I look forward to bringing these staffs on board, working 
with Congress, listening to the suggestions from Congress as we 
deliver and put together the President's strategy.
    Ms. Watson. On the day that you were confirmed as Director, 
the consolidated national drug control budget for fiscal year 
2010 was released. And did you have any input into the 
formation of that 2010 budget, and what significant differences 
do you think there will be between a 2010 budget and a 2011?
    Mr. Kerlikowske. I did not have the opportunity to weigh in 
at all, and, until confirmed, took absolutely no actions even 
though I was the nominee. I know that in speaking with the 
President and in speaking with the Vice President, my position 
in our office will have a great deal of input in putting 
together the strategy for the next go-around.
    Ms. Watson. It seems that the disparity between powder 
cocaine and crack cocaine disadvantages minorities, and we've 
had trouble in our courts. I mean, we have a large percentage--
I'm from California--of our young black males in prison more 
than are in college, and that statistic cannot continue. So I 
would hope that as the Director that you would look into that 
disparity and look into how we can support the programs, walk-
in programs.
    When I was in the Senate and chairing the health committee, 
year after year we would introduce bills that would allow 
storefront treatment centers that people could walk into. The 
conservative administration always said it would be too costly. 
Well, it cost the lives and the careers of our young people. So 
I hope you will look deeply into that as you begin your work.
    Mr. Kerlikowske. Please be assured that I will. Thank you.
    Ms. Watson. Thank you.
    Mr. Kucinich. I thank the gentlelady.
    The Chair recognizes the gentleman from Massachusetts Mr. 
Tierney.
    Mr. Tierney. Thank you very much.
    Thank you, Mr. Kerlikowske, for being here today. Can you 
share with me what the rationale was behind reducing the amount 
of money that went into the High-Intensity Drug-Trafficking 
Areas program? Do you have some data or some evidence that 
contradicts what we've been hearing from law enforcement 
personnel that, in fact, it's useful and helpful?
    Mr. Kerlikowske. I'm a strong supporter of HIDTA. I served 
on the HIDTA Board in Seattle and believe, as other Members 
have stated, that they are useful.
    I don't have the particular details of the budget issue. I 
know that the law enforcement agencies would always appreciate 
more assistance. Meeting with the HIDTA Directors, five of whom 
I'll be talking with tomorrow in Nashville, is something that I 
will certainly explore further.
    Mr. Tierney. I know it's one thing they always want 
resources, but I'm sure what they don't want is a reduction if 
they can really put the money to good use. So I would 
appreciate you examining that with them and then let us know 
what your result of that; whether you think the $14 million 
reduction was appropriate, or whether you've revisited it after 
you've met with them.
    Mr. Kerlikowske. I will.
    Mr. Tierney. Thank you.
    Do you have a position on the so-called gateway theory, the 
idea of focusing resources on marijuana use for young people?
    Mr. Kerlikowske. I don't. I've seen--I've read a lot of 
research and a lot of literature. You cannot deny that people 
that are using much stronger drugs than marijuana often started 
with marijuana. I think there is a disagreement among the 
academics and the researchers on whether or not marijuana is, 
in fact, a gateway.
    Mr. Tierney. Do you have a position also on NARCAN?
    Mr. Kerlikowske. No, I don't. I've been in office 8 days. I 
know 36 years of law enforcement. I have a lot to learn.
    Mr. Tierney. I thought you might have bumped up against it 
in Seattle.
    Mr. Kerlikowske. I've seen the use of the preventives, and 
I've seen the use of bringing people out of the heroin 
overdoses by drug treatments, but these are medical areas that 
actually I'm being briefed on almost immediately.
    Mr. Tierney. Well, there are some people, obviously, who 
feel that success actually works counter, because people are 
going to start relying on it being there, which I think may be 
a bit of an odd way to look at things on that if you can save a 
life. But I'll look forward to talking next time we have you in 
and see what you've developed for a theory on that. Thank you.
    I yield back, Mr. Chairman.
    Mr. Kucinich. At the request of a number of members of this 
subcommittee, we are going to go to another round of questions 
of Mr. Kerlikowske, and then go to the next panel after that.
    Now, in your position, will prevention be a big item?
    Mr. Kerlikowske. Yes.
    Mr. Kucinich. Well, given that preventing substance abuse 
is the most cost-effective method to reduce the cost and 
consequences of addiction, could you explain why the 
President's budget proposal to reduce prevention funding by 
10.6 percent has occurred? How does that square with your 
philosophy?
    Mr. Kerlikowske. I would tell you that my ability to 
influence or be involved in this budget process was nil. I know 
that prevention is an important part of the Obama 
administration. I will be working very hard on this next 
presentation and on the President's drug strategy, and that 
prevention will be an important component.
    Mr. Kucinich. So would you recommend that they not cut 
funds for prevention?
    Mr. Kerlikowske. I actually don't know enough about the 
details of the 2010 budget, as much as I have looked at tons of 
material already in just a few days.
    Mr. Kucinich. Are you familiar with the proposed 
elimination of States' grants portion of the Safe and Drug-Free 
Schools and Communities Program?
    Mr. Kerlikowske. I am.
    Mr. Kucinich. And do you agree that would leave schools 
that do not receive a grant from the national program without 
funding for even minimal drug and violence prevention in 
schools?
    Mr. Kerlikowske. Mr. Chairman, I would answer it this way, 
that any of the programs that are not shown to be effective 
need to be looked at and either need to be reduced or 
eliminated, but I do not have the details of how that was 
evaluated and how that was looked at.
    Mr. Kucinich. Given that, as you said many times, 8 days on 
the job, I think it would be helpful for this committee to 
receive from you information on your position as to how 
prevention programs will manage with a reduction and whether or 
not most local education associations actually use the money 
that comes from the Safe and Drug-Free Schools Community 
Program to leverage other resources and to develop consortia to 
pool their resources to provide optimally effective programs 
and services.
    We need an analysis from you on that. If you, as you said, 
have just come into this recently, it would be helpful to 
understand how your positions will square with some of the 
budget realities.
    Finally, the ONDCP is statutorily required to set 
quantifiable goals for reducing illicit drug use and the 
consequences of illicit drug use in the United States, but 
rarely has done the latter. In particular, the agency has never 
set quantifiable goals of reducing fatal drug overdoses or the 
spread of HIV/AIDS, even though rates of both are relatively 
easy to calculate.
    As Director of the ONDCP, you have broad statutory latitude 
to set both national goals and performance measures. Will you 
set short and long-term objectives for reducing the harms 
associated with both drugs and the war on drugs? If so, what 
performance measures will you focus on? And, finally, will you 
consider adding additional measurement criteria and performance 
goals related to drug overdose deaths, HIV transmission rates, 
and the number of hard-core addicts?
    Mr. Kerlikowske. Mr. Chairman, the Metrics and Measures 
Project is already under way within ONDCP, using a wide variety 
of data to establish the measures and to see how we are doing 
against ours goals. It will be very important. It can't be 
limited to just a few small measures, and I agree with that. We 
will be asking for a lot of input, and particularly input from 
the members of the committee and your staff.
    Mr. Kucinich. OK. I yield to Mr. Jordan for 5 minutes.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Kerlikowske, the gentlewoman from California I think 
asked you earlier about the needle exchange program and you 
said you would get back to her. How soon do you think you can 
have an answer to this committee about your feelings about that 
proposal and specifically in light of the President's comments 
about that concept?
    Mr. Kerlikowske. Mr. Jordan, I would tell you that the 
needle exchange issue, the medical marijuana issue, and several 
others that have been mentioned here, are all high priorities 
for me. I am doing my very best to kind of get my arms and head 
around the agency right now.
    Mr. Jordan. Three months, 4 months, 6 months? What do you 
think?
    Mr. Chairman, maybe it would be appropriate, obviously it 
is the chairman's call, to have the Director back at some 
point. He has talked about several times 8 days on the job, 
which I understand.
    Mr. Kucinich. I was thinking the same thing. Let's have our 
staffs work together with Mr. Kerlikowske for a followup 
meeting so we can do some benchmarks and measure the progress. 
So the answer to that is yes.
    Mr. Jordan. Mr. Chairman, if I could before I forget about 
it, I would ask unanimous consent to submit two articles from 
last spring. One says Vancouver's injection site proven 
ineffective and cost-prohibitive. The other says the U.N. says 
safe injection sites should be closed.
    Just for the committee.
    Mr. Kucinich. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5545.022
    
    [GRAPHIC] [TIFF OMITTED] T5545.023
    
    Mr. Jordan. Thirty-six years you said, Mr. Kerlikowske, you 
have been working in the law enforcement field. Tell me just 
with that experience, what is it that leads a person down this 
trail? I have my theories. Mine deal, frankly, with family life 
or lack of family life, particularly a mother and father there 
to provide some of the guidance and discipline that parents 
provide.
    But in your 36 years, just give me what is it that pushes a 
young person into this terrible, terrible lifestyle?
    Mr. Kerlikowske. You know, when I was pretty young in this 
business, I think I had all the answers, and now that I am 
almost 60, I am not sure I have even the right questions.
    I would tell you that I think it is infinitely complex. I 
think it begins with parents. I think issues of prenatal care, 
parent coaching, early childhood programs, Head Start, 
neighborhoods, communities, religious, faith-based, etc., are 
all important. I also think that the medical testimony about 
addiction as a disease is also of critical importance.
    If I knew the one answer that heads them down that path----
    Mr. Jordan. What is your best guess? You talked about what 
you thought you knew when you were young. It reminded me of the 
statement, Mark Twain had a great line. When I was 10, my dad 
knew everything. When I was 20, he didn't know much of 
anything. Now that I am 30, I am surprised how much he has 
learned in 10 years. It sort of works that way for all of us, I 
think.
    But if you had to say one thing, would you say it is the 
lack of a mom and dad there doing the things that parents do?
    Mr. Kerlikowske. I would say family and parent issues, 
neighborhood and community are of critical importance. Getting 
parents off to the right start and getting children off to the 
right start would make all of my former colleagues', police 
chiefs and sheriffs, jobs a heck of a lot easier.
    Mr. Jordan. Let me ask you one other thing real quick here. 
The Southwest Border Counternarcotics Strategy you mentioned in 
your testimony, your prepared testimony, that this has 
undergone an accelerated review and update. Talk to me about 
that.
    Again, this sort of gets back to my first round 
questioning, when we talked about what is going on on the 
border. Talk to me about that in the remaining minute I have.
    Mr. Kerlikowske. I have had an opportunity to look at what 
would be the final draft of that policy. I have not had the 
opportunity to talk with the Vice President and the Secretary 
of the Department of Homeland Security about it. But I know 
that earlier she had asked that ONDCP be much more heavily 
involved in this issue, and I plan on taking that up as quickly 
as I can.
    Mr. Jordan. Thank you, Mr. Chairman.
    Mr. Kucinich. The Chair recognizes Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman. I would like to for 
the record just submit the articles that I was referring to 
before.
    Mr. Kucinich. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5545.024
    
    [GRAPHIC] [TIFF OMITTED] T5545.025
    
    [GRAPHIC] [TIFF OMITTED] T5545.026
    
    [GRAPHIC] [TIFF OMITTED] T5545.027
    
    [GRAPHIC] [TIFF OMITTED] T5545.028
    
    [GRAPHIC] [TIFF OMITTED] T5545.029
    
    [GRAPHIC] [TIFF OMITTED] T5545.030
    
    [GRAPHIC] [TIFF OMITTED] T5545.031
    
    [GRAPHIC] [TIFF OMITTED] T5545.032
    
    Mr. Kennedy. Thank you. I would like to also submit a 
letter from my own State Department of Health. We have a needle 
exchange program in Rhode Island that has reduced transmission 
of HIV.
    Mr. Kucinich. Without objection, so ordered.
    Mr. Kennedy. Thank you. If I could go to the issue of 
getting your support for this SBIRT, early screening, brief 
intervention and treatment, if we could integrate into our 
health care system drug counseling, screening and so forth, and 
make it as routine as diabetes screening or anything else, it 
would destigmatize it and it also help us on the prevention 
that the chairman said is the cheapest way for us to tackle 
these problems.
    If you had it with every doctor, no matter what specialty 
they had, and you reimbursed them for it, and I mean white coat 
docs, so they don't have to be mental health docs or substance 
abuse specialty docs, every doc got to be trained in this, can 
you talk about how that would be really revolutionary in terms 
of advancing this cause in terms of public health? And would 
you be able to join us in the effort to write to the medical 
boards that put together these tests for medical schools and 
encourage them to put more questions on the tests vis-a-vis 
drug and alcohol training and questions and mental health so as 
to encourage medical schools to put their curricula more in 
line with the patients that their future physicians are going 
to see? That is, every patient they are going to see is going 
to have to have a cross-section of being a whole person, not 
only there for whatever specific malady they might be going to 
a specialist for, but they are also going to have a complement 
of mental health and emotional issues as well, and now their 
doctors are going to be also able to be trained to deal with 
that, just maybe in a cursory public health way.
    Mr. Kerlikowske. I have had two initial briefings on the 
program. I am a supporter of the program. The analogy would be 
as we educated and informed physicians to ask patients, 
particularly their female patients, about domestic violence and 
inform them and educate them about domestic violence, that it 
can help to reduce that. Having the physicians also do the 
screening and the discussion with their patients, regardless of 
what they come in to see that physician for, about addiction 
and substance abuse, would be a great step forward, and I am 
supportive of that.
    Mr. Kennedy. As my colleague Mr. Cummings mentioned, there 
are all kinds of folks out there hanging their shingle saying 
they are drug treatment folks, and as my other colleague Mr. 
Jordan said, you know, some of these treatment things just 
don't work. Here is evidence that this guy was in umpteen 
different treatment things and he never got well.
    Are you for making sure we have some national standards on 
putting in place maybe JCAHO or NCQA standards for treatment 
facilities, just like we have for every other health facility, 
so that we can implement what works in the treatment world?
    Mr. Kerlikowske. Congressman, I am not prepared to talk 
about whether or not I would support particular standards. I 
would tell you that the treatment issues are very important to 
me, people looking at treatment as not just a 12-step program 
or a 30-day inpatient program as being a measure of success. 
There are a lot of people that take medications for high blood 
pressure for their entire lives, they take statins for 
cholesterol, and looking at treatment perhaps in a different 
way than just in and out and cured is probably not the best 
viewpoint.
    Mr. Kennedy. Well, I would just say that airline pilots and 
doctors have 96 percent success rates in drug treatment. Well, 
they have to. Obviously, they are flying our planes and 
operating on us. Let's get what works and appropriate it to 
everybody.
    Thank you.
    Mr. Kucinich. The gentleman's time has expired. Thank you 
very much.
    The Chair recognizes Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    Let me ask you this: You know, we authorized ONDCP back in 
2006 when I was the ranking member. Tell me, we are going to 
hopefully do it in 2010, what are your recommendations for 
topics we should be addressing? Are you familiar enough to 
answer that?
    Mr. Kerlikowske. I would tell you that in looking at the 
reauthorization I was surprised at the level of detail and 
complexity, and I think it reflected disappointment with 
Congress' view of how ONDCP was operating. I would hope that in 
the intervening time that we would develop a relationship and 
trust about what works and how we can come together and that 
during the reauthorization process that we be given the tools 
at ONDCP to be more effective than we have been in the past.
    Mr. Cummings. Just recently, about a month ago, as a matter 
of fact, a group of us traveled to Panama, Colombia, Brazil, 
and Mexico. And it is so interesting in Mexico the top law 
enforcement officials were telling us, and you have heard the 
stats, I think he said 80 or 90 percent of the guns, and being 
in law enforcement, a law enforcement person, I am sure you can 
sympathize and empathize, were coming out of the United States, 
and these were the same guns that were being used to fight the 
police and the military with regard to drugs.
    And I am just trying to figure out how--the President is in 
a very tough position. You have a country who basically says, 
we want our guns. You have the NRA with their position. But at 
the same time you got Mexico which is saying, United States, 
you are largely responsible for our problems. One, you are 
consuming the drugs; and, two, your guns are coming down to us. 
So we have a double whammy here.
    I mean, how do you make your voice heard under those 
circumstances, considering all the political ramifications? 
This is very real.
    What they said to us is they believe, I am talking about 
the high-ups. I am not talking about folks--I am talking about 
the top people. They told us that this Mexican situation, drug 
problem, is already spilling over into the United States and it 
is going to get worse.
    Then we went to Colombia. President Uribe, who we met with, 
literally begged us to make sure when we came back to the 
United States that we did everything in our power to make sure 
that there was maximum cooperation between the United States 
and Colombia with regard to drugs. That was very personal to 
me, because 90 percent of the drugs that come to Baltimore come 
out of Colombia. So I am trying to figure out how you are going 
to make your voice heard.
    You were selected for a reason. I don't know all the 
background, but I am sure there were some interviews and you 
had to say this is my plan, this is what I hope to do. And 
everything I have heard about you is you are a no-nonsense 
person, you are very serious about what you do. But I am trying 
to figure out how do you see your way in addressing issues like 
that? Because this is a serious business. And as the President 
of Colombia said, you know, it would be good to be able to stop 
it here because no matter--I mean, when it gets at your shores, 
it has done and will continue to do a lot of damage.
    Mr. Kerlikowske. You know, at this point in my career I 
didn't want to come to Washington without being able to make a 
difference, Congressman. I can tell you that all of my 
association with all of my colleagues across the country, they 
want to be a part of this.
    I was very heartened by the immediate steps Secretary 
Napolitano took to reduce guns flowing into Mexico and also 
bulk cash-flowing into Mexico. I have had several briefings 
just within the last week on Mexico, and I know that with our 
Southwest Border Strategy about to be delivered, that those 
issues have been added and will be addressed.
    I have never been a shrinking violet on a lot of these 
tough issues, and I don't plan on changing my stature in this 
administration.
    Mr. Cummings. Thank you.
    Mr. Kucinich. I thank the gentleman.
    The Chair recognizes the gentlelady from California.
    Ms. Watson. I remember going down to Cuba and we met with 
Fidel Castro about 4 or 5 years ago, and he said that you know, 
if you could relax the restrictions, he says we are 90 miles of 
your coast, and we see the boats coming through here and going 
up to the upper 48, and he said if we could do interdiction 
together we could stop that traffic.
    I am just wondering, do you see a time, and I would hope 
under your leadership because we need it, a drug czar, that we 
join with the Cubans in interdicting this drug trade?
    Of course, we have a big problem, because that is where the 
money is. We are having problems in California over our border. 
Tijuana, right over the border to Los Angeles. Of course, they 
are having more in Texas and New Mexico.
    But do you see a future where we can join with Cuba in 
interdicting and we can--I guess we have to go back to the 
President, because I see the problem really at the top. Our 
President Barack Obama was there a few weeks back and met with 
the President. But we have to join, both countries and some of 
the island nations, if we are going to stop the flow.
    But the need is so great for drugs here, and I think a lot 
of the advertising that we see on television and we hear on 
radio contributes to that. ``Take something to feel better.'' 
Well, when that something wears off, you still feel the way you 
did, or even worse than before.
    What do you see for the future? What would you lay out as a 
plan to join with other countries and have a united effort to 
stop the flow?
    Mr. Kerlikowske. Having spent some of my career in Florida, 
I was certainly familiar with the steps that were taken. One of 
the next trips I will be taking will be to Key West to meet 
with the joint task force that works that entire Caribbean-
South America-Central America, the entire region. So I am 
looking forward to learning a lot about that.
    I can tell you that it is probably premature for me to 
actually even engage in a thought right now about the 
relationship with Cuba when it comes to drug interdiction, but 
I can tell you that shortly after I visit with the commanders 
in Key West and spend more time with the State Department 
officials, I will know an awful lot more about that issue.
    Ms. Watson. Thank you. I yield back.
    Mr. Cummings [presiding]. Thank you very much. Again, we 
want to thank you for your service. We look forward to working 
with you. The challenges are indeed great and you have a major, 
major job. I have often said our children are the living 
messages we send to a future we will never see. The question 
becomes, will we send them to a future?
    So we know that you are up to the task. We look forward to 
working with you closely because we again want you to be most 
effective and efficient. Thank you again.
    Mr. Kerlikowske. Thank you all very much.
    Mr. Cummings. We will call now the second panel. Gail 
Christopher, the Chair of the National Academy of Public 
Administration Panel on the Office of National Drug Control 
Policy; John Carnevale, internationally recognized expert in 
the field of drug policy, President of Carnevale Associates, 
LLC; Professor Peter Reuter, Professor in the School of Public 
Policy and the Department of Criminology at the University of 
Maryland; and Bobby Charles, the Charles Group, LLC, the 
President of that organization, after serving from 2003 to 2005 
as Assistant Secretary of State for International Narcotics and 
Law Enforcement.
    I am sorry, you all have to stand up again. I have to swear 
you in. This is one of the few committees where you have to do 
this.
    [Witnesses sworn.]
    Mr. Cummings. Ms. Christopher. It is Ms. Christopher? 
Doctor, I am sorry. I always try to make sure I give people 
their due. Those degrees are hard to come by. For me it was, 
let's say it like that.

 STATEMENTS OF GAIL C. CHRISTOPHER, PH.D., CHAIR, PANEL ON THE 
 OFFICE OF NATIONAL DRUG CONTROL POLICY: BUILDING THE CAPACITY 
  TO ADDRESS THE NATION'S DRUG PROBLEMS, NATIONAL ACADEMY OF 
  PUBLIC ADMINISTRATION; JOHN CARNEVALE, PH.D., PRESIDENT OF 
 CARNEVALE ASSOCIATES, LLC; PETER REUTER, PROFESSOR, SCHOOL OF 
  PUBLIC POLICY AND DEPARTMENT OF CRIMINOLOGY, UNIVERSITY OF 
MARYLAND; AND ROBERT B. CHARLES, PRESIDENT, THE CHARLES GROUP, 
                              LLC

            STATEMENT OF GAIL C. CHRISTOPHER, PH.D.

    Ms. Christopher. Thank you, Chairman Cummings, Ranking 
Member Jordan, and distinguished members of the subcommittee. 
Thank you for inviting me here today. I am honored to appear 
before you to discuss the National Academy of Public 
Administration's 2008 study and report entitled ``Building the 
Capacity to Address the Nation's Drug Problems.''
    It was my pleasure to chair the Academy's ONDCP panel of 
six members with diverse backgrounds in fields such as public 
health, social policy, law enforcement, public management, 
budget and policy analysis.
    The purpose of the congressionally mandated study was to 
provide insights into changes and improvements that could make 
ONDCP more effective in the future. Underlying all of its 
recommendations is the panel's firm belief that ONDCP's 
adoption of a comprehensive approach to multiyear strategic 
planning informed by the best available data will help the 
organization to accomplish its mission. The panel's 
recommendations embody principles, tools, and processes that 
will maximize ONDCP's effectiveness under any administration 
and any director.
    The ONDCP challenge is to compile a comprehensive strategy 
that overlays the strategic plans of the numerous diverse 
agencies and ties the many pieces together in a common, 
national program, without conflicting with the individual 
agency's strategic plans and budgets.
    Let me begin by acknowledging the very encouraging way in 
which the new ONDCP Director Kerlikowske, with the support of 
Acting Director Ed Jurith, has adopted a very energetic agenda 
to resolve many of the issues that the panel reported and that 
my written testimony describes.
    His endorsement of a comprehensive, multiyear National Drug 
Control Strategy, the creation of a policy budget steering 
group, reestablishment of the Drug Demand Reduction Interagency 
Working Group, commitment to reaching out to stakeholders, and 
the variety of efforts he has undertaken to reinvigorate the 
ONDCP work force should have a dramatic and positive impact on 
ONDCP's mission and its success.
    I will summarize the following selected recommendations 
which relate to the issues this subcommittee has identified for 
this hearing and would ask that the complete report be entered 
into the record.
    ONDCP should develop a comprehensive, multiyear National 
Drug Control Strategy that is informed by high quality and 
diverse data that covers all age groups, illicit drugs and 
regions of the Nation. ONDCP should bring to bear the full 
range of the Nation's drug control expertise and build an 
internal culture that values critical inquiry, open debate and 
pragmatic decisionmaking.
    ONDCP should develop a comprehensive national drug budget 
summary informed by that multiyear strategy which incorporates 
total estimated Federal expenditures for all supply reduction, 
demand reduction and other Federal drug control activities, as 
well as State, local, and tribal affairs activities related to 
drug control.
    Further, Congress should modify ONDCP's oversight 
responsibilities relative to individual agency drug budgets so 
as to tie its review more closely to the annual OMB budget 
review process.
    ONDCP should no longer require drug control agencies to 
provide performance reports that merely duplicate the GPRA and 
PART data that is gathered for OMB. The panel believes that 
ONDCP's energies are better spent assisting agencies in 
improving the performance measures that they use to generate 
the data so that the measures align with the overall drug 
control strategy. In addition, ONDCP should continue working on 
measures that assess the aggregate performance of drug control 
agencies in addressing the goals of the national strategy.
    ONDCP should work to create a more collaborative and 
consultative environment in order to increase its effectiveness 
in its relationships with Congress, the National Drug Control 
Program agencies and stakeholders throughout the Nation, and we 
believe that process has already begun with the new 
administration.
    ONDCP should comply with statutory requirements, provide 
information to Congress in a more timely manner, increase the 
ability of the drug control agencies to have meaningful input 
into the substance of the strategy, use working coordinating 
committees to expand its outreach capabilities, and institute a 
regular feedback mechanism with National Drug Control Program 
agencies and stakeholders.
    As ONDCP celebrates its 20th year of existence, the panel 
believes the organization has the opportunity to enhance its 
effectiveness and its credibility, increase transparency, 
streamline its organization, simplify its work processes, 
bolster its work force management, and improve and leverage 
critical relationships. Seizing this opportunity can translate 
into increased organizational capacity to address the Nation's 
drug challenges with positive implication for the Nation's 
public health and certainly for the Nation's future.
    Thank you, and I would be happy to answer any related 
questions.
    [The prepared statement of Ms. Christopher follows:]

    [GRAPHIC] [TIFF OMITTED] T5545.033
    
    [GRAPHIC] [TIFF OMITTED] T5545.034
    
    [GRAPHIC] [TIFF OMITTED] T5545.035
    
    [GRAPHIC] [TIFF OMITTED] T5545.036
    
    [GRAPHIC] [TIFF OMITTED] T5545.037
    
    [GRAPHIC] [TIFF OMITTED] T5545.038
    
    [GRAPHIC] [TIFF OMITTED] T5545.039
    
    [GRAPHIC] [TIFF OMITTED] T5545.040
    
    [GRAPHIC] [TIFF OMITTED] T5545.041
    
    [GRAPHIC] [TIFF OMITTED] T5545.042
    
    Mr. Cummings. Thank you very much.
    Dr. Carnevale.

               STATEMENT OF JOHN CARNEVALE, PH.D.

    Mr. Carnevale. Good afternoon, Mr. Chairman and members of 
the committee. I want to thank you for this opportunity to 
present my views on ONDCP's past performance, key actions, and 
recommendations to restore the integrity of that office, and 
the fiscal year 2010 National Drug Control Budget. I have a 
formal statement which I request be submitted for the record.
    Mr. Cummings. So ordered.
    Mr. Carnevale. The committee asked me to discuss ONDCP's 
failures and its loss of status that occurred during the 
previous administration that could very well affect ONDCP's 
future effectiveness. I will highlight just a few of the 
findings I have in my written statement.
    The first one is that ONDCP did not properly align the 
policy with the Federal drug control budget to implement it. In 
fact, policy and budget were exactly at odds with one another. 
The strategy essentially had one demand reduction goal, which 
was to reduce drug use among youth and adults, but had a budget 
that emphasized supply reduction.
    Second, there was no accounting for the performance of that 
strategy. ONDCP ignored the congressionally mandated 
requirement for a systems approach to strategic planning, which 
includes performance accountability that looks at the 
effectiveness of policy. It instead relied on OMB's PART 
process that is program-oriented rather than policy-oriented.
    No. 3, ONDCP jettisoned the statutorily required 
consultation process. Had it consulted and collaborated with 
external stakeholders, perhaps it would not have completely 
missed the meth and prescription drug epidemics.
    Four, ONDCP failed to recognizing the softening of youth 
attitudes about the dangers of drug use that began in 2005. 
This new trend signals the very real possibility that youth 
drug use will now increase. Cutting prevention funding by 10 
percent during the prior administration's tenure was wrong.
    Five, ONDCP jettisoned much of the drug budget. Even though 
Congress required a comprehensive accounting of Federal drug 
control resources, billions of dollars in Federal drug control 
spending were ignored. This made it impossible for all of us to 
be smarter about drug policy decisionmaking.
    So looking forward, what do we do to improve ONDCP's 
effectiveness? I have three recommendations, Mr. Chairman.
    No. 1, ONDCP must meet its statutory obligation to take a 
systems approach to design the National Drug Control Policy. 
This systems approach is described in great detail in my 
written statement and is very much a part of the statutory 
authorization of ONDCP.
    No. 2, ONDCP must heavily invest in demand reduction; in 
other words, prevention and treatment. This means preparing 
immediately for the possible resurgence in youth drug use and 
tackling addiction. More demand reduction will also eventually 
mean less crime and violence for nations like Mexico as we 
reduce our long-term demand.
    Three, with regard to the National Academy of Public 
Administration's recommendations, they did an outstanding job 
and they have a lot of great recommendations that I strongly 
support. However, there are two that I believe must be 
completely ignored, apologies to Dr. Christopher, please.
    First, the Congress and administration should not implement 
the recommendation to essentially turn the budget process over 
to OMB. I worked in OMB in the 1980's and I remember what that 
process was like when we were in charge of the budget and there 
was no drug czar. We just witnessed in the fiscal 2010 budget 
what can go wrong when OMB is in charge of the National Drug 
Control Budget. We now have a policy-budget mismatch. 
Prevention is being cut at a time when it is most needed.
    Second, the Congress and the administration should not 
accept NAPA's recommendation to also turn performance 
accountability over to OMB. NAPA's recommendation shows that it 
failed to recognize the critical difference between policy--
excuse me, between program versus policy or strategy 
performance evaluation. ONDCP must rebuild a state-of-the-art 
performance accountability system along the lines of what it 
had in place in the late 1990's.
    I want to conclude by briefly talking about the new 
administration's fiscal year 2010 budget request. It is my view 
that the new administration has gotten off on the wrong foot. I 
am disappointed by the proposed drug budget.
    For example, the fiscal year 2010 drug budget continues 
cuts in prevention, particularly school-based prevention, and 
adds very little money for substance abuse treatment. This 
decision, presumably by the Office of Management and Budget, 
strengthens my point that the NAPA recommendation to 
essentially turn the budget decisions over to OMB is wrong. 
Again, let's not put OMB in charge of the drug budget.
    This concludes my comments. Thank you for the opportunity 
to appear before you today. I am happy to answer any questions 
you may have.
    [The prepared statement of Mr. Carnevale follows:]

    [GRAPHIC] [TIFF OMITTED] T5545.043
    
    [GRAPHIC] [TIFF OMITTED] T5545.044
    
    [GRAPHIC] [TIFF OMITTED] T5545.045
    
    [GRAPHIC] [TIFF OMITTED] T5545.046
    
    [GRAPHIC] [TIFF OMITTED] T5545.047
    
    [GRAPHIC] [TIFF OMITTED] T5545.048
    
    [GRAPHIC] [TIFF OMITTED] T5545.049
    
    [GRAPHIC] [TIFF OMITTED] T5545.050
    
    [GRAPHIC] [TIFF OMITTED] T5545.051
    
    [GRAPHIC] [TIFF OMITTED] T5545.052
    
    [GRAPHIC] [TIFF OMITTED] T5545.053
    
    [GRAPHIC] [TIFF OMITTED] T5545.054
    
    [GRAPHIC] [TIFF OMITTED] T5545.055
    
    [GRAPHIC] [TIFF OMITTED] T5545.056
    
    [GRAPHIC] [TIFF OMITTED] T5545.057
    
    [GRAPHIC] [TIFF OMITTED] T5545.058
    
    [GRAPHIC] [TIFF OMITTED] T5545.059
    
    [GRAPHIC] [TIFF OMITTED] T5545.060
    
    [GRAPHIC] [TIFF OMITTED] T5545.061
    
    [GRAPHIC] [TIFF OMITTED] T5545.062
    
    [GRAPHIC] [TIFF OMITTED] T5545.063
    
    [GRAPHIC] [TIFF OMITTED] T5545.064
    
    [GRAPHIC] [TIFF OMITTED] T5545.065
    
    [GRAPHIC] [TIFF OMITTED] T5545.066
    
    [GRAPHIC] [TIFF OMITTED] T5545.067
    
    Mr. Cummings. Thank you very much.
    Mr. Reuter.

                   STATEMENT OF PETER REUTER

    Mr. Reuter. Mr. Chairman, I appreciate the opportunity to 
testify before you this afternoon. I ask that my full 
statement, written with Jonathan Caulkins of Carnegie Mellon 
University, be entered into the record.
    Mr. Cummings. I can't hear you. I am sorry.
    Mr. Reuter. I ask that my full statement, written with 
Jonathan Caulkins of Carnegie Mellon University, be entered 
into the record. Is this not coming through?
    Mr. Cummings. I can't hear him.
    Mr. Reuter. Can I start over again?
    Mr. Kucinich. Just keep your voice up. It is not clear.
    Mr. Reuter. Thanks.
    Mr. Chairman, I appreciate the opportunity to testify. I 
ask that my full statement, written with Jonathan Caulkins of 
Carnegie Mellon University, be entered into the record.
    Mr. Cummings. Very well.
    Mr. Reuter. Professor Caulkins and I address three issues 
in our testimony. First, we point to the importance of 
distinguishing among broad classes of drugs in making policy 
decisions. Much confusion results from treating all illegal 
drugs as a single policy target. For example, diverted 
pharmaceuticals present very different problems and policy 
opportunities than do cocaine and heroin.
    In my oral testimony, though, I will focus mostly on our 
second issue, which is incarceration related to cocaine and 
heroin. I will just briefly discuss foreign policy issues.
    The United States now has probably half a million 
individuals under lock and key for drug offenses on any given 
day, including the substantial numbers who are in local jails 
for drug charges. To put that in context, that is about 22 
percent of the total prison population. It is more than the 
countries of the European Union with their 400 million citizens 
are able to put away for all criminal offenses. Even more to 
the point, it is 10 times as many as were imprisoned at the end 
of Ronald Reagan's administration when the drug problem was 
probably at its peak.
    What has been the return for all this incarceration? The 
mechanism that links drug incarceration to drug use is price 
and availability. Tougher enforcement should make cocaine and 
heroin more expensive and less available. As is well-known, the 
purity adjusted price of cocaine and heroin have fallen 
steadily since 1981 when systematic measurement began.
    According to a recent analysis done for ONDCP, the decline 
for cocaine continued even through 2007 even as the Mexican 
market descended into chaos. The availability measures based on 
population surveys have shown only modest declines for cocaine 
over that same period.
    There probably has been a reduction in the number of 
regular users of cocaine and heroin over the last 20 years. 
However, that is more plausibly related simply to the working 
out of epidemics, cycles of fashion and culture, as indicated 
by the rapid aging of the cocaine and heroin dependent 
populations, though incarceration certainly has had some modest 
effect on the numbers. Indicative of the aging, the share of 
those treated for heroin, cocaine, and methamphetamine 
dependence who are over 40 rose from just 13 percent in 1992 to 
31 percent in 2004.
    What if the Nation moved to a prosecution and sentencing 
regime that over the next few years reduced the number of drug 
prisoners to a mere quarter million? We believe that there is 
good analysis and argument that such a change would have 
minimal effect on drug price and availability. It would, 
however, save society substantial money and with appropriate 
alternative sanctions would also reduce the harshness with 
which the governments treat poor minority communities.
    Any case for cutting drug imprisonment should not pretend 
that prisons are bulging with first-time nonviolent drug 
offenders. Most were involved in distributing drugs. Few got 
into prison on their first conviction. They had to work their 
way in. The system mostly locks up people who have caused a 
good deal of harm to society. Most will, when released, revert 
to drug use and crime. They do not tug the heartstrings as 
innocent victims of a repressive state. Nonetheless, locking 
them up should be the last resort, not an automated response.
    Let me turn briefly to foreign policy issues. Two countries 
supply the United States with almost all its imported drugs, 
Colombia and Mexico. Afghanistan is the third country that 
matters not because its heroin reaches these shores in great 
quantities, but because the heroin industry helps keep the 
Taliban funded and also by financing warlords weakens essential 
government.
    Again, the historical record and analysis both strongly 
suggests that there is little that can be accomplished to 
reduce the flow of drugs to the United States with 
interventions in other countries. Eradication and interdiction 
can affect how coca and opium are grown and the routes by which 
cocaine and heroin are trafficked. But the process of moving 
the industry around the world is quite damaging. What you 
produce for a transient country is likely to be hurt more than 
the original country benefits from a shift in the business. At 
a more micro-level, spreading coca growing to more parts of the 
Andes through intensive eradication efforts causes substantial 
harm to the ecology of the region. It is hard not to act 
against production and trafficking that hurts the United 
States, but we present arguments that such policies may cause 
more harm than good.
    Thank you very much.
    [The prepared statement of Mr. Reuter follows:]

    [GRAPHIC] [TIFF OMITTED] T5545.068
    
    [GRAPHIC] [TIFF OMITTED] T5545.069
    
    [GRAPHIC] [TIFF OMITTED] T5545.070
    
    [GRAPHIC] [TIFF OMITTED] T5545.071
    
    [GRAPHIC] [TIFF OMITTED] T5545.072
    
    [GRAPHIC] [TIFF OMITTED] T5545.073
    
    [GRAPHIC] [TIFF OMITTED] T5545.074
    
    [GRAPHIC] [TIFF OMITTED] T5545.075
    
    [GRAPHIC] [TIFF OMITTED] T5545.076
    
    [GRAPHIC] [TIFF OMITTED] T5545.077
    
    [GRAPHIC] [TIFF OMITTED] T5545.078
    
    [GRAPHIC] [TIFF OMITTED] T5545.079
    
    [GRAPHIC] [TIFF OMITTED] T5545.080
    
    [GRAPHIC] [TIFF OMITTED] T5545.081
    
    [GRAPHIC] [TIFF OMITTED] T5545.082
    
    [GRAPHIC] [TIFF OMITTED] T5545.083
    
    [GRAPHIC] [TIFF OMITTED] T5545.084
    
    [GRAPHIC] [TIFF OMITTED] T5545.085
    
    [GRAPHIC] [TIFF OMITTED] T5545.086
    
    [GRAPHIC] [TIFF OMITTED] T5545.087
    
    Mr. Cummings. Thank you very much.
    Mr. Charles, good to see you again.

                 STATEMENT OF ROBERT B. CHARLES

    Mr. Charles. Sir, it is always a pleasure to be in front of 
you.
    My thoughts today are elementary. I have a few simple if 
strongly held views to share. I find myself, by the way, in 
strong agreement with most of what Dr. Christopher and Dr. 
Carnevale had to say. My views are neither Republican or 
Democrat. They are what I would like to think of as common 
sense. They emerge from two decades of work in demand and 
supply, advising Federal, State, and local law enforcement, as 
well as State and national prevention, education, treatment, 
and law enforcement groups. They are distilled from a range of 
experiences, spending time as a circuit clerk on the U.S. Court 
of Appeals, in jails, schoolhouses, treatment facilities, and 
places as diverse and regularly there as Colombia, Bolivia, 
Peru, Mexico on one hand, Thailand, Malaysia, Laos on the 
other. I have even had the good fortune on hunkering down in 
Baghdad and Kabul to talk about counternarcotics. And the sad 
task also of helping parents who have lost kids to drugs re-
find their life's purpose.
    Professionally my views, as you know, sir, better than 
most, are molded by 5 years up here on the Hill. During that 
time I ran the Bipartisan Drug Policy Working Group co-chaired 
by Congressmen Zeliff and Rangel, Speaker Hastert's Drug-Free 
America Task Force, the subcommittee that you were the ranking 
member for that elevated and vetted drug related demand and 
supply reduction legislation, including the 1997 Drug Czar 
Reauthorization Act.
    Finally, between 2003 and 2005, I was Colin Powell's 
Assistant Secretary handling narcotics issues in 70 countries, 
which brings me here today as nothing more than a commentator.
    My short thoughts are these five.
    No. 1, to cast the Nation's counternarcotics efforts over 
the past two decades as a waste of time, as misguided, as a 
failure, is simply wrong. We have collectively succeeded in 
many ways. For periods of several years at a time during both 
Republican and Democratic administrations we have managed to 
change attitudes and behavior patterns. The data is all there.
    We have managed during these high attention times to 
educate young Americans well, to pull more addicted Americans 
back from the abyss, to reduce emergency room admissions for 
various illegal drugs, to reduce certain categories of violent 
and property crime tied to drug use, and concretely return the 
rule of law and stability to formerly drug-ravaged countries, 
and we can detail those if you want.
    No. 2, what we have not been able to do in any permanent 
way yet is to erase the recurring need for education, 
treatment, and deterrence born of keeping narcotics at the 
front and center as a law enforcement and national security 
issue, community, family and personal responsibility issue. We 
have not found a way yet to sustain national will and attention 
around a topic that few like to discuss, either in their own 
lives, the lives of their families, or even schools and 
communities, never mind the Nation.
    We have yet to erase the reality and the enormous 
heartbreak of drug abuse and addiction, drug-related accidents, 
drug-related suicides, the tragedy of sudden death by drugged 
driving, which is quite common. Falling educational performance 
tied to drug dependence. Drug-related abuse of women and 
children. By the way, both the Clinton and Bush Justice 
Departments put 80 percent of overall abuse; that is to say, 
domestic abuse, at the feet of substance abuse. Much of it is 
poly drug use.
    We haven't been able to get away from the drug-related 
violence in our towns, cities, and at the Southwest border. 
And, yes, drug-funded terror groups, which now number more than 
25, increasingly encroach on U.S. interests around the world 
and do include Hezbollah, Hamas, the PKK, mutations of the KLA, 
the FARC, AUC, Taliban, HIG, IMU, and a growing number of 
terrorist cells in this hemisphere. We do not even need to 
utter the word ``Afghanistan.'' Portions of some of these 
groups are amply financed by our own drug abuse right here in 
the United States.
    So despite successes, we face a challenge as meaningful and 
compelling as any that the Nation has wrestled with in decades.
    No. 3, America needs to focus on both sides of drug abuse 
and drug crime, adequately and sustainably supporting both the 
health and law enforcement sides of our personal, family, 
community, State and Federal anti-drug efforts. To minimize the 
role of either law enforcement, often dubbed the supply side, 
since the aim is to deter drug production and trafficking, or 
the health-related requirements, including prevention and 
treatment costs, the so-called demand side, would in my view be 
a sudden turn for the worse. Moreover, to minimize either 
deterrence and what it takes to deter drug-related crime or 
health and prevention would be reckless.
    No. 4, drug legalization is a non-starter, period. I have 
two studies that I urge be put in the record, one of which is a 
robust economic study on that topic. One of my graduate degrees 
is in economics. The economics of drug abuse, written large and 
small, are against anything like legalization.
    To gain new perspective, just ask Sweden or the non-
addicted people in any country where drug availability has 
risen. More drugs means more addiction, higher health care 
costs, lower educational performance, more property and 
personal crimes committed on drugs, which are six times as 
likely as crimes committed to get drugs, more domestic abuse, 
and a degradation in a variety of related health indicators, 
from inhibitions against unprotected sex to shared drug 
needles.
    What is more, the nature of addictive commodities and 
sliding price elasticity of demand for drugs means that any 
legislation widening availability and use will accelerate 
emotional and physical damage to the very youth we hope in so 
many other ways to protect. To that, add the persistence of a 
drug black market, both empirically and because addiction means 
there will always be a black market until the day when drugs 
like heroin are given away 100 percent pure in any quantity 
that somebody wants.
    In short, the case is a slam dunk against drug 
decriminalization or legalization or harm reduction, and the 
irresponsibility of discussing it as a real option is 
tantamount to discussing some other way in which we might 
legally conspire to victimize and deceive our Nation's young 
people so as to pay our way, which actually it would not, out 
of State or Federal debt. No, there is no saving grace to 
promoting drug abuse. Full stop.
    Five. Hope springs eternal for ways to save and protect 
young lives, to improve everything from education to 
deterrence. This Congress and this drug czar and President have 
a chance, a real chance, to show real leadership in the drug 
war, which has been lacking. Whether you prefer to talk about 
anti-violence and pro-law enforcement end of the spectrum or 
the pro-health care end of the spectrum, the spectrum, like any 
criminal issue with health consequences, from rape and maiming 
to assault and intentional infliction of emotional distress, is 
a continuous, unbroken, integrally related circle. Trying to 
fix the health consequences residing on one side of the circle 
without deterring the behavior and the means that create the 
opportunity and promote the opportunity and promote the other 
side, the ill health consequences on the other side, is to miss 
the point.
    Mr. Cummings. Mr. Charles, can you wrap up?
    Mr. Charles. I will.
    We must minimize the level of inattention that has been 
given to this, maximize the attention, and remember that in a 
nonpartisan way, quite frankly, we are due for some real 
leadership on this issue.
    [The prepared statement of Mr. Charles follows:]

    [GRAPHIC] [TIFF OMITTED] T5545.088
    
    [GRAPHIC] [TIFF OMITTED] T5545.089
    
    [GRAPHIC] [TIFF OMITTED] T5545.090
    
    [GRAPHIC] [TIFF OMITTED] T5545.091
    
    [GRAPHIC] [TIFF OMITTED] T5545.092
    
    Mr. Cummings. I want to thank all of you for your 
testimony.
    Dr. Christopher, tell me, in its report NAPA cited a lack 
of expertise in the work force at ONDCP saying that they needed 
more to be able to accomplish their mission. What types of 
skill sets and expertise are needed most to make the 
organization effective and efficient?
    Ms. Christopher. Thank you for the question. Since the 
first priority for ONDCP is to understand the scope and nature 
of the drug problem, it first must have competent statisticians 
who are equipped to utilize the wealth of survey data that is 
available to gain a better understanding of the many facets of 
the drug problem, and certainly the idea of a new deputy that 
brings a medical and preventive background speaks to the skill 
deficit in a very effective and creative way.
    The office also requires competent economists who are able 
to conduct in-depth analysis of the global drug market. 
Understanding markets generally is one thing, but understanding 
a complex global illicit market with limited market indicators 
is another more difficult assignment.
    Much data is collected about the illicit drug market 
demand, but less is known about market supply. This is an area 
where ONDCP can truly provide value-added as a coordinator of 
the National Drug Control Program.
    The academy report also focused in on the need for more 
diversity of the agency's staff, given the disproportionate 
impact of these issues in diverse minority communities.
    Mr. Cummings. Dr. Carnevale, one of the things that I am 
concerned about is the whole drug court situation. I think drug 
courts are very effective. It seems to me the President's 
budget calls for $59 million of new problem-solving--it says 
``problem-solving court initiatives.'' Apparently what that 
means is there are discretionary funds, and then drug courts 
have to compete for those funds. Are you familiar with that? 
Are any of you familiar with that?
    Mr. Carnevale. I am familiar with the program, yes.
    Ms. Christopher. Yes.
    Mr. Cummings. That concerns me. I think drug courts, as I 
said before, have been very effective. They put a carrot and 
stick approach. In Baltimore we have found them to probably--
this is basically talking to judges, and judges have no reason 
to exaggerate. But they claim that it is one of the best tools 
that they have. I am just wondering what you all's opinion of, 
you know, putting money out there so that these drug courts 
that already are scraping for money, trying to find money 
wherever they can.
    As a matter of fact, one of our drugs courts in Baltimore 
basically has had to go to some private foundations and 
whatever trying to put together the pieces for something that 
has been very effective. I am just wondering what you all's 
opinion on that might be?
    Mr. Charles. Let me say, Mr. Congressman, I am 100 percent 
for it. I will just tell you, as you know probably as well as 
anyone, over the last 8 years the Byrne/JAG grant money was 
dramatically cut from its high of $1.3 billion at the end of 
the Clinton years, and it is a travesty that we have lost that 
emphasis. Some of the money actually goes to that purpose, just 
as it is vital to restore the Safe and Drug-Free Schools money.
    Mr. Reuter. If I could just add, one of the problems with 
the drug courts is that the eligibility criteria for defendants 
are so strict that in fact it doesn't make a large difference 
in the great body of criminal justice decisionmaking. In fact, 
if you are an experienced heroin addict, you almost certainly 
are not eligible for a drug court, simply because you will have 
accumulated a criminal history that doesn't allow you in there. 
The advances in drug courts will come from changing the 
eligibility criteria, which is not actually I think on the 
agenda.
    Mr. Cummings. Well, I can tell you, in Baltimore they would 
disagree with you, Mr. Reuter, because, again, I trust my 
judges, and they have begged for drug court money. They said 
they would almost rather have drug court money than almost 
anything else, because they see that it works.
    You have an opinion on that, Dr. Christopher?
    Mr. Christopher. I do. The drug court process, we at the 
Kellogg Foundation, which is another hat that I wear, are 
actually funding drug courts in Michigan because we find them 
to be extremely effective, particularly when you talk about the 
impact on child welfare and family dissolution. So many of the 
cases that come into the system where children are being 
removed has, of course, to do with various forms of substance 
abuse. So being able to use this type of approach has proven to 
be extremely effective.
    Mr. Carnevale. Mr. Cummings, if I may comment on that as 
well, the drug court program I think has been very effective in 
targeting a certain population and needs to be expanded. It 
hasn't really seen much growth in the past 8 years. And I think 
we are all pleased to see the budget request that came in.
    One element of the drug court program that I think is very 
important that is often overlooked is the Drug Court Institute 
that is currently in place. It is only funded I think at around 
$1 million, but it puts information on best practices that is 
disseminated to all drug courts nationwide. And as we expand 
the number of drug courts, I think it is also very important 
that Congress help this institute grow with it so it can help 
all these drug courts be more effective and get a little bit 
more mileage for the money that they are getting.
    Mr. Kucinich [presiding]. I thank the gentleman.
    The Chair recognizes Mr. Jordan.
    Mr. Jordan. Thank you, Mr. Chairman. If I could first of 
all ask unanimous consent that two attachments be included. One 
is a Harvard Journal, a legislative article entitled, ``Back to 
the Future: The Collapse of National Drug Control Policy. A 
Blueprint for Revitalizing the Nation's Narcotics Efforts.'' 
And the other is a second study done by Mr. Charles entitled, 
``Economic Thinking on Addiction and Legalization.''
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T5545.093
    
    [GRAPHIC] [TIFF OMITTED] T5545.094
    
    [GRAPHIC] [TIFF OMITTED] T5545.095
    
    [GRAPHIC] [TIFF OMITTED] T5545.096
    
    [GRAPHIC] [TIFF OMITTED] T5545.097
    
    [GRAPHIC] [TIFF OMITTED] T5545.098
    
    [GRAPHIC] [TIFF OMITTED] T5545.099
    
    [GRAPHIC] [TIFF OMITTED] T5545.100
    
    [GRAPHIC] [TIFF OMITTED] T5545.101
    
    [GRAPHIC] [TIFF OMITTED] T5545.102
    
    [GRAPHIC] [TIFF OMITTED] T5545.103
    
    [GRAPHIC] [TIFF OMITTED] T5545.104
    
    [GRAPHIC] [TIFF OMITTED] T5545.105
    
    [GRAPHIC] [TIFF OMITTED] T5545.106
    
    [GRAPHIC] [TIFF OMITTED] T5545.107
    
    [GRAPHIC] [TIFF OMITTED] T5545.108
    
    [GRAPHIC] [TIFF OMITTED] T5545.109
    
    [GRAPHIC] [TIFF OMITTED] T5545.110
    
    [GRAPHIC] [TIFF OMITTED] T5545.111
    
    [GRAPHIC] [TIFF OMITTED] T5545.112
    
    [GRAPHIC] [TIFF OMITTED] T5545.113
    
    [GRAPHIC] [TIFF OMITTED] T5545.114
    
    [GRAPHIC] [TIFF OMITTED] T5545.115
    
    [GRAPHIC] [TIFF OMITTED] T5545.116
    
    [GRAPHIC] [TIFF OMITTED] T5545.117
    
    [GRAPHIC] [TIFF OMITTED] T5545.118
    
    [GRAPHIC] [TIFF OMITTED] T5545.119
    
    [GRAPHIC] [TIFF OMITTED] T5545.120
    
    [GRAPHIC] [TIFF OMITTED] T5545.121
    
    [GRAPHIC] [TIFF OMITTED] T5545.122
    
    [GRAPHIC] [TIFF OMITTED] T5545.123
    
    [GRAPHIC] [TIFF OMITTED] T5545.124
    
    [GRAPHIC] [TIFF OMITTED] T5545.125
    
    [GRAPHIC] [TIFF OMITTED] T5545.126
    
    [GRAPHIC] [TIFF OMITTED] T5545.127
    
    [GRAPHIC] [TIFF OMITTED] T5545.128
    
    [GRAPHIC] [TIFF OMITTED] T5545.129
    
    [GRAPHIC] [TIFF OMITTED] T5545.130
    
    [GRAPHIC] [TIFF OMITTED] T5545.131
    
    [GRAPHIC] [TIFF OMITTED] T5545.132
    
    [GRAPHIC] [TIFF OMITTED] T5545.133
    
    [GRAPHIC] [TIFF OMITTED] T5545.134
    
    [GRAPHIC] [TIFF OMITTED] T5545.135
    
    [GRAPHIC] [TIFF OMITTED] T5545.136
    
    [GRAPHIC] [TIFF OMITTED] T5545.137
    
    [GRAPHIC] [TIFF OMITTED] T5545.138
    
    [GRAPHIC] [TIFF OMITTED] T5545.139
    
    [GRAPHIC] [TIFF OMITTED] T5545.140
    
    [GRAPHIC] [TIFF OMITTED] T5545.141
    
    [GRAPHIC] [TIFF OMITTED] T5545.142
    
    [GRAPHIC] [TIFF OMITTED] T5545.143
    
    [GRAPHIC] [TIFF OMITTED] T5545.144
    
    [GRAPHIC] [TIFF OMITTED] T5545.145
    
    [GRAPHIC] [TIFF OMITTED] T5545.146
    
    [GRAPHIC] [TIFF OMITTED] T5545.147
    
    [GRAPHIC] [TIFF OMITTED] T5545.148
    
    [GRAPHIC] [TIFF OMITTED] T5545.149
    
    [GRAPHIC] [TIFF OMITTED] T5545.150
    
    [GRAPHIC] [TIFF OMITTED] T5545.151
    
    [GRAPHIC] [TIFF OMITTED] T5545.152
    
    [GRAPHIC] [TIFF OMITTED] T5545.153
    
    [GRAPHIC] [TIFF OMITTED] T5545.154
    
    [GRAPHIC] [TIFF OMITTED] T5545.155
    
    [GRAPHIC] [TIFF OMITTED] T5545.156
    
    [GRAPHIC] [TIFF OMITTED] T5545.157
    
    [GRAPHIC] [TIFF OMITTED] T5545.158
    
    [GRAPHIC] [TIFF OMITTED] T5545.159
    
    [GRAPHIC] [TIFF OMITTED] T5545.160
    
    [GRAPHIC] [TIFF OMITTED] T5545.161
    
    [GRAPHIC] [TIFF OMITTED] T5545.162
    
    [GRAPHIC] [TIFF OMITTED] T5545.163
    
    [GRAPHIC] [TIFF OMITTED] T5545.164
    
    [GRAPHIC] [TIFF OMITTED] T5545.165
    
    [GRAPHIC] [TIFF OMITTED] T5545.166
    
    [GRAPHIC] [TIFF OMITTED] T5545.167
    
    [GRAPHIC] [TIFF OMITTED] T5545.168
    
    [GRAPHIC] [TIFF OMITTED] T5545.169
    
    [GRAPHIC] [TIFF OMITTED] T5545.170
    
    [GRAPHIC] [TIFF OMITTED] T5545.171
    
    [GRAPHIC] [TIFF OMITTED] T5545.172
    
    [GRAPHIC] [TIFF OMITTED] T5545.173
    
    [GRAPHIC] [TIFF OMITTED] T5545.174
    
    [GRAPHIC] [TIFF OMITTED] T5545.175
    
    [GRAPHIC] [TIFF OMITTED] T5545.176
    
    [GRAPHIC] [TIFF OMITTED] T5545.177
    
    [GRAPHIC] [TIFF OMITTED] T5545.178
    
    [GRAPHIC] [TIFF OMITTED] T5545.179
    
    [GRAPHIC] [TIFF OMITTED] T5545.180
    
    [GRAPHIC] [TIFF OMITTED] T5545.181
    
    [GRAPHIC] [TIFF OMITTED] T5545.182
    
    [GRAPHIC] [TIFF OMITTED] T5545.183
    
    [GRAPHIC] [TIFF OMITTED] T5545.184
    
    [GRAPHIC] [TIFF OMITTED] T5545.185
    
    [GRAPHIC] [TIFF OMITTED] T5545.186
    
    [GRAPHIC] [TIFF OMITTED] T5545.187
    
    [GRAPHIC] [TIFF OMITTED] T5545.188
    
    [GRAPHIC] [TIFF OMITTED] T5545.189
    
    [GRAPHIC] [TIFF OMITTED] T5545.190
    
    [GRAPHIC] [TIFF OMITTED] T5545.191
    
    [GRAPHIC] [TIFF OMITTED] T5545.192
    
    [GRAPHIC] [TIFF OMITTED] T5545.193
    
    [GRAPHIC] [TIFF OMITTED] T5545.194
    
    [GRAPHIC] [TIFF OMITTED] T5545.195
    
    [GRAPHIC] [TIFF OMITTED] T5545.196
    
    [GRAPHIC] [TIFF OMITTED] T5545.197
    
    [GRAPHIC] [TIFF OMITTED] T5545.198
    
    [GRAPHIC] [TIFF OMITTED] T5545.199
    
    [GRAPHIC] [TIFF OMITTED] T5545.200
    
    [GRAPHIC] [TIFF OMITTED] T5545.201
    
    [GRAPHIC] [TIFF OMITTED] T5545.202
    
    [GRAPHIC] [TIFF OMITTED] T5545.203
    
    [GRAPHIC] [TIFF OMITTED] T5545.204
    
    [GRAPHIC] [TIFF OMITTED] T5545.205
    
    [GRAPHIC] [TIFF OMITTED] T5545.206
    
    [GRAPHIC] [TIFF OMITTED] T5545.207
    
    [GRAPHIC] [TIFF OMITTED] T5545.208
    
    [GRAPHIC] [TIFF OMITTED] T5545.209
    
    [GRAPHIC] [TIFF OMITTED] T5545.210
    
    [GRAPHIC] [TIFF OMITTED] T5545.211
    
    [GRAPHIC] [TIFF OMITTED] T5545.212
    
    [GRAPHIC] [TIFF OMITTED] T5545.213
    
    [GRAPHIC] [TIFF OMITTED] T5545.214
    
    [GRAPHIC] [TIFF OMITTED] T5545.215
    
    [GRAPHIC] [TIFF OMITTED] T5545.216
    
    [GRAPHIC] [TIFF OMITTED] T5545.217
    
    [GRAPHIC] [TIFF OMITTED] T5545.218
    
    [GRAPHIC] [TIFF OMITTED] T5545.219
    
    [GRAPHIC] [TIFF OMITTED] T5545.220
    
    Mr. Jordan. Thank you, Mr. Chairman.
    Let me go right to you, Mr. Charles, because actually I 
have to run here in about 3 minutes.
    Your No. 4 point, you were really strong on talking about 
why we should not have any decriminalization of drug use. You 
said more drugs means more addiction. It makes sense to me. 
Just elaborate on that point if you would, and then I have one 
other question.
    Mr. Charles. The nutshell version is you can talk to Herb 
Clever up at the Columbia University Substance Abuse Center. 
The research is pretty clear. When you have more availability 
and more use, you get a percentage increase in addiction. Over 
years, that becomes an increasing problem, because you get more 
and more sick people.
    Mr. Jordan. Right. Give me your comments then on the needle 
exchange program.
    Mr. Charles. Needle exchange programs, on which there is a 
lot of divided research, basically don't do what they are 
credited for doing. The reason for that is the word 
``exchange'' actually is a bit of a fiction. It is really a 
needle giveaway program. Because addicts, and you can talk to 
the addicts themselves, tend to get themselves in a position 
where they want the drug. So heroin happens to be a very 
addictive drug. Other intravenous drugs are usually high 
potency. The result is that they don't go back and exchange the 
needles. So there is more and more needles out there. Never 
mind the moral message that you are sending, which is somehow 
drug abuse by injection is OK.
    Mr. Jordan. Give me again, Mr. Charles, your background. 
You worked for both R&D, Republicans and Democrats, you worked 
for both here?
    Mr. Charles. I have worked for Mr. Cummings quite a lot 
over the years, as people know. My background is I have a 
graduate degree in both economics and law. I litigated. I 
worked in the Reagan and Bush White Houses. I then became a 
litigator, worked writing a bunch of these things, and then 
taught at Harvard for a short period of time, became a Staff 
Director for Speaker Hastert, ran the drug task forces, and 
then later wrote a book on narcotics, and worked for Colin 
Powell.
    Mr. Jordan. One of the other points you made in your 
testimony, and just for the remaining few minutes I have here, 
the link between terrorists and drug use, I think you named off 
every terrorist group I have ever heard of, I believe.
    Mr. Charles. Actually, there are ones I didn't name.
    Mr. Jordan. The ones I have heard of at least. Talk about 
that link and the impact of interdiction efforts in dealing 
with that linkup between drug use and terrorist activity.
    Mr. Charles. There is another elephant in the room, and 
that other elephant in the room is the very tight relationship 
that exists worldwide. And in the United States talk with some 
of the HIDTAs about ongoing investigations into Hezbollah in 
the United States. Talk to the HIDTAs. They will tell you.
    There is a very clear link between drug funding and the 
growth of terrorist organizations of all kinds and criminal, 
larger international criminal organizations. The terrorist 
organizations, believe it or not, that we worry most about, and 
I won't detail them, although Hezbollah happens to be the 
largest terrorist organization in the world, they are 
increasingly dependent on drug revenue. And what you find is, 
and this is your job as a Congressman, not mine, is that there 
is a great stovepiping which creates the elephant in the room, 
and nobody wants to talk about the drug-terror nexus.
    The great stovepiping is that DEA, God bless them for 
everything they do, deals with just drugs, and CIA and others 
in the intelligence community tend to focus their resources on 
CT. In fact they have bled dry the CNC component of CIA in 
order to do CT work. Nobody wants to talk about the other part 
of this. And the reality is that in the quiet of the night, 
while we do not have proof beyond a reasonable doubt that every 
organization is getting the majority of its funding from drugs, 
we have more probable than not, and if we wait for proof beyond 
a reasonable doubt, we'll be looking down the barrel of another 
9/11.
    Mr. Jordan. Mr. Charles, one of the reasons, if you were 
here for the earlier testimony with the Director, I asked him 
about how he interfaces with Homeland Security in trying to 
address this very pint.
    Mr. Charles. Point-blank, there was a statutory provision 
which was put in by Mr. Souder and Mr. Cummings that allows him 
to interface directly with DHS through the CNE office. It has 
essentially been an unutilized office. And what you have now is 
some hope, and I will tell you why. In addition to--and you are 
hearing this from a Republican.
    I am not only hopeful because they have put back a lot of 
the money on law enforcement, they have put back a lot of the 
money for critical things you need, but you have Rand Beers, 
who is an all-time drug warrior, a guy that ran INL, a $2 
billion bureau that I ran for Powell, he ran it before me, and 
that person, Rand Beers, I think is now the No. 2 or No. 3 at 
DHS. He cares.
    Mr. Jordan. But this ability, this is so important and I am 
hoping the chairman here is going to look into this more as 
well, this ability for this office that we are talking about 
today, Mr. Kerlikowske's office, to interface with Homeland 
Security, that is critical.
    Mr. Charles. It is critical, because there is no doubt in 
my mind nor in the mind of any serious law enforcement officer 
in this country that looks at CT-CN issues, that is 
counterterrorism-counternarcotics, that the link is intimate.
    Mr. Jordan. Mr. Chairman, again, I hope that is something 
we can really delve into in the future because of the 
importance for national security.
    Mr. Kucinich. Thank you very much.
    Mr. Charles, given your position in 2003 to 2005 as 
Assistant Secretary of State for International Narcotics and 
Law Enforcement Affairs, do you have any theory as to how it is 
that during the U.S. presence in Afghanistan, the production of 
opium shot up 80 to 90 percent? Do you have any theory about 
that?
    Mr. Charles. I have more than a theory. I have the facts.
    Mr. Kucinich. How did that happen?
    Mr. Charles. There were a number of people, like me, Rich 
Armitage and Colin Powell, who argued very strongly that 
counternarcotics should be a piece of the mission, that 
ultimately the better part of the funding for the Taliban and 
even remnants of al Qaeda and IMU and HIG that were active in 
Afghanistan and surrounding areas, that the better part of the 
fuel was all drug money.
    The basic argument was that if you want to stop a 
combustion engine, you don't keep poking your fingers into it 
and trying to catch individual terrorists, which is what we 
were doing. You do that in combination with cutting off the 
fuel for the engine. And what we did not do, what we never 
implemented because we were not allowed to fully implement it, 
was a counternarcotics strategy.
    I wrote 13 different counternarcotics strategies at the 
behest of the NSC. Every single one of them got a nice read, 
and that was where it ended.
    Mr. Kucinich. You are talking about specifically with 
respect to Afghanistan?
    Mr. Charles. I am talking about specifically with respect 
to Afghanistan.
    Mr. Kucinich. This subcommittee would be happy to read 
those reports.
    Mr. Charles. Well, I will tell you, the better part of that 
strategy still sits on the table over at State.
    Mr. Kucinich. I think the American people, who are sending 
their sons and daughters to Afghanistan, and we have lost quite 
a few men and women there, and we have seen the Taliban in 
resurgence for quite a while, and you have testified that these 
organizations are being fueled with drug money, and we have 
seen there has been an 80-90 percent increase in opium 
production, and then, of course, we are talking about an 
increase in heroin sales. If there is that link there, that is 
something we ought to explore, especially since you said that a 
critical part of the strategy was left out.
    Now, Mr. Reuter, do you have any comment on that at all?
    Mr. Reuter. Yes. I mean, if in fact there were----
    Mr. Kucinich. Is your mic on, sir? If not--if it is----
    Mr. Reuter. It is on.
    Mr. Kucinich. Pull it closer so we can hear you.
    Mr. Reuter. OK. Sorry.
    If there were in fact a strategy that could reduce opium 
production without imperiling the Karzai government, then 
indeed this government should undertake that. No such strategy 
has been proposed.
    Mr. Charles. I beg to differ.
    Mr. Kucinich. Hold on, Mr. Charles. I will ask the 
questions and you will direct your comments to the Chair.
    Are you saying then that the Karzai government is actually 
being supported by the increased opium production?
    Mr. Reuter. The effort to eradicate crops in the field is 
an action against peasant farmers in Afghanistan. They are 
politically important simply because they are large in number, 
not because they are particularly well organized.
    The reason that the military, not just of the United States 
but the military of other countries present in the coalition 
forces as well, have been resistant to implementing any of 
these programs is precisely the perception, and I think a 
perfectly plausible one, that this would in fact endanger the 
central government that we have helped form. And it is that 
tension which is at the heart of the fight between the State 
Department and Defense Department.
    Mr. Charles has a view about that, and others disagree with 
it, but that is the tension, and there isn't any way that I 
think sitting out here we can resolve it. But it is clear that 
if we push--let me just say one more thing.
    One of the things we can do is push production out of areas 
which we control into areas the Taliban controls, and that I 
think, if anything, worsens the problem inasmuch as it 
increases the funding base of the Taliban.
    Mr. Kucinich. I am going to go to you in a minute, Mr. 
Charles. I just want you to respond to this question, Mr. 
Reuter.
    How do you explain that with the U.S. military having such 
a large presence in Afghanistan, that during the same period of 
time we see such a rapid increase in opium production? How does 
that happen?
    Mr. Reuter. OK, let me make two comments about that. First 
is about the rapid increase. Essentially after 2002, the levels 
of production returned to where they had been before the 
Taliban had imposed a ban in the year 2001. So until 2005, it 
was just back to where it was before. I think the estimates for 
2006 and 2007, which show very large increases, are quite 
implausible. There is no evidence in terms of the decline in 
price in Afghanistan or increased availability in the rest of 
the world that there has been a very large increase. So I am 
quite skeptical of those figures.
    Nonetheless, your question is probably reasonable even 
without those increases. It is clear that the crop is grown 
openly through much of the country. It gets moved around. There 
have been times in which provinces have been cleaned up and it 
moved elsewhere. That is indeed what our policies can do. We 
can move it around. But we do not have the control on the 
ground to be able to accomplish it.
    Mr. Kucinich. Thank you, Mr. Reuter.
    Mr. Charles.
    Mr. Charles. With all due deference, the numbers were in 
the tens of thousands prior to the Taliban locking it down in 
2001. They went to 30,000 in 2002, 61,000 in 2003, 214,000 in 
2004, and more than that in 2005. Yes, they are higher now in 
2006 and 2007. Your numbers are exactly right. They supply more 
than 90 percent of the world market.
    And are they accurate? Well, both the commercial and closed 
satellite photography seem to suggest they're highly accurate, 
No. 1. No. 2, there is a strategy. The strategy is a combined 
strategy. It is a strategy that has worked in other countries 
around the world for 30 years, and it involves putting 
alternative development hand in glove with eradication that is 
effective.
    And Mr. Cummings' point about effectiveness is so valuable. 
Getting at it one by one, region by region. And by the way, the 
crop does not move around dramatically. To a large extent the 
north of Afghanistan has never been a big poppy growing area 
except for parts of Badakhstan. But in the provinces that are 
most heavily populated now by the Taliban drugs are the primary 
driver of income for that group. And the saddest part about 
this is this is an utterly winnable effort. If we would sit 
down, look again at the strategies that were put forward by 
Colin Powell, by Rich Armitage, by me in a prior administration 
that were essentially sidelined because they were too--here is 
the real bottom line. And I'm really going step on some toes 
here. When the field commander who happens to now be the 
Ambassador was in charge over there they took the view, they 
took the view that this was highly inconvenient, that 
essentially handling----
    Mr. Kucinich. What was highly inconvenient?
    Mr. Charles. Addressing the drug issue was highly 
inconvenient. You could put it down there in a social category 
like hepatitis and deal with it later. The problem is anybody 
who knows counternarcotics, anybody at this table, most of the 
people in this room, know that it is an enormous accelerant of 
instability when it's allowed to go just roughshod over 
society. And so what transpired was every military commander--I 
spent 10 years in the military, every military commander has a 
2-year tour, give or take, and they know that it can auger in 
after they leave. So it was too hard a problem to address at 
that time, and at the end of the day we are now paying for 
inactivity, we are now paying the price for not having tackled 
it at the front end.
    And I testified in front of this committee 5 years ago 
saying identical things to what I'm saying now, and I got my 
knuckles wrapped when I went back. But the bottom line is I 
always told the truth, and I'm telling you the truth now. It's 
winnable, but we're not doing it.
    Mr. Kucinich. I want to say to Mr. Charles and Mr. Reuter 
that this paradox of increased U.S. presence in Afghanistan and 
sharply increasing production of opium and therefore heroin, 
where Afghanistan, according to figures by our own government, 
is achieving a larger and larger market share worldwide, 
there's something wrong with that story. And what we need to 
do----
    Mr. Charles. Can I tell you what it is, sir?
    Mr. Kucinich. No. What we are going to need to do is to 
talk to the full committee, talk to Mr. Towns about looking at 
this again and get some resources in so we can have a more 
penetrating analysis. As I've been following this Iraq war, to 
me it's been, or the Afghanistan war, it's been mystifying how 
we could see such a sharp increase.
    Mr. Charles. Sir, at the end of the day----
    Mr. Kucinich. Thank you, Mr. Charles. You just explained 
one possibility, and I appreciate the mitigating circumstances 
that Mr. Reuter brings up.
    I'm going to move on to another part of the question here 
to Ms. Christopher. The NAPA report suggests that it is 
critically important that ONDCP be a data driven organization 
seen by other drug control agencies as an honest broker of drug 
use trends and other data reflecting successes and failures of 
drug control policy. For example, NAPA is critical of ONDCP's 
focus on marijuana as a gateway drug, associating early 
marijuana use with addiction to other drugs later in life since 
there is data showing that there are other gateway drugs that 
are more associated with leading young people to greater drug 
use than marijuana. If a drug prevention policy would be based 
on science, should we be focusing more on teen use of alcohol 
and tobacco, and how can ONDCP present data in a more neutral 
and legitimate manner?
    Ms. Christopher. Thank you for the question, Mr. Chairman. 
The NAPA report does emphasize the importance of a more 
collaborative and outreached, focused strategy, and we believe 
that the current Director has made proactive steps in 
addressing that particular issue. And certainly the limited 
focus on marijuana does negate or not pay enough attention to 
the role of alcohol, and tobacco for that matter, in leading 
young people to more extensive use of other drugs.
    So we definitely encourage a broader scientific and 
evidence base to inform the overall policy, and we encourage a 
comprehensive strategy that looks at all of the issues that are 
before the committee today.
    Mr. Kucinich. Thank you.
    Mr. Carnevale, can you explain your proposal for a modified 
budget certification process and how you think the budget 
should be structured to ensure that Congress and the public are 
aware of all drug policy spending?
    Mr. Carnevale. Yes. This is one area, Mr. Chairman, I think 
that's very critical. Budget certification is a tool that the 
Office of National Drug Control Policy has to help it shape 
budgets that the Federal--its Federal agency partners put 
together during the year before OMB sees it. Certification was 
reviewed by the General Accounting Office back in 1999, and 
they looked at a decade's worth of effort with respect to the 
certification process and found that the tool was highly 
effective even though we had only, in quotes, decertified about 
10 agencies over the entire 10-year period. If certification is 
used correctly, then what you do is put peer pressure, in a 
sense real pressure because you're speaking from the White 
House, on your partner agencies to in fact do what the 
President wants, which is to support the President's National 
Drug Control Strategy.
    So in terms of the process, there's two things I would like 
to suggest. One is under current law certification the tool 
itself has been badly damaged I think. Every time ONDCP 
certifies a budget it now has to report to Congress. And so 
what that results in is a fear to use the tool itself because 
Congress can disagree with ONDCP as it's trying to manage the 
budget process.
    But setting that aside, I think in terms of improving the 
process there's been a dramatic change, as the NAPA report 
correctly finds, in how we account for drug control spending. 
ONDCP under the previous administration threw out about 30 
agencies, I don't have the exact number, out of the drug 
budget, and so these agencies are no longer being reviewed for 
purposes of certification. I think one of the recommendations 
that I have is that we bring these agencies back into the 
comprehensive accounting that NAPA talked about in its report. 
That's No. 2.
    But with certification, I have sort of a lengthy 
explanation in my testimony, but I can now envision a two-tier 
process where a handful of agencies get certified. And these 
agencies would be the ones that have a very active role in 
making policy work. For example, thinking about treatment, 
thinking about prevention, prosecution, investigations, these 
are areas where you can put resources in and have an immediate 
effect. When you start thinking about the Bureau of Prisons, 
which houses--well over 50 percent of its incarcerated 
population is in there for drug-related reasons, we no longer 
score them or treat their budgets as drug related. But in a 
policy sense I would argue that part of that makes sense. In a 
second tier you wouldn't decertify or certify that budget 
because the Bureau of Prisons can't actively through policy 
decide 1 day it's going to increase its prison population to 80 
percent drug related. And so we've proposed a two-tier approach 
to the certification process in our testimony, or in my 
testimony.
    Mr. Kucinich. Thank you. Now, your testimony states that 
while drug use among youth has been on a general decline since 
1996, data shows softening attitudes related to disapproval of 
drug use which could result in the beginning of an upward 
trend. You also cite an uptick in the 8th and 12th grade use of 
illicit drugs from 2007 to 2008.
    Given this data and the general decline of resources 
allocated to prevention in the last 8 years, isn't the proposal 
to eliminate the States' grants portion of the safe and drug 
free schools and communities program shortsighted? Are you 
concerned that if drug use rates rise without this program 
there will be no safety net in place to deal with, and 
shouldn't we be putting more, not less resources into 
prevention programs.
    Mr. Carnevale. My answer to the shortsighted part of the 
question is yes, I think it is shortsighted. I'm very 
concerned. I looked at the Department of Education--excuse me--
the Office of Management and Budget's recommendation clearly, 
and there's a Department of Education report about the program, 
and it doesn't say the program doesn't work, the States' grant 
portion, the State portion of the program. But what it does say 
is that the program has been badly mismanaged, and it has been 
for the past decade. And I'm greatly concerned that OMB in this 
case is using that information to cut a program simply because 
it's been mismanaged. I would rather see I think at this point, 
given what we're seeing with attitudes changing, and these 
attitudes have to do with the softening of attitudes with 
respect to the disapproval rates around drug abuse, the dangers 
of drug abuse, we're seeing upticks now that aren't 
statistically significant. But we saw this happen back in 1990, 
1991 and 1992, when suddenly youth drug use exploded and all 
the tell-tales were there.
    I'm really concerned that this program be saved. If the 
issue is one of mismanagement, which I think is a strong 
tradition at the Department of Education, but it has been one 
that cut across many administrations, then I think it's time 
that we take the funding for this program and have it 
transferred to ONDCP and let them decide which agencies can 
best use that funding.
    Mr. Kucinich. Thank you, sir. Mr. Reuter, did you have a 
comment on that?
    Mr. Reuter. I'm co-author of the report that was cited as a 
basis for cutting the program. That was a report done in 2001 
and perhaps things have changed. But at the time I would say 
it's not mismanagement so much as it's just a poorly structured 
program. It's essentially a formula grant program which imposes 
very few obligations on the recipient schools, and that's built 
into the structure of it, and I don't think any better 
management is going to change that aspect of it.
    You would have to make a very fundamental change in the 
law. And putting it in the hands of ONDCP would make it an 
utterly different program. But in the form that it is now, 
where it's essentially a formula grant, there is nothing here 
that suggests that this is an effective way of funding 
effective prevention programs. You can rewrite the law, but 
there's not a management issue.
    Mr. Kucinich. Let me ask you this. You conducted a RAND 
study in 2001 and concluded that the States' grants portion of 
the SDFSC program was profoundly flawed. Have you conducted any 
additional studies on the program since the passage of H.R. 1, 
which sought to legislatively correct some of the problems with 
the State grants portion of the SDFSC program? And your report, 
as you know, was cited in the 2010 budget as justification for 
eliminating the program. Is it applicable to the State grants 
portion of the SDFSC program as it's currently legislated?
    Mr. Reuter. I have not followed this study further, so I 
cannot answer that question. If there have been made 
fundamental changes----
    Mr. Kucinich. That what?
    Mr. Reuter. If fundamental changes have been made I simply 
don't know about them. So I can't answer your question.
    Mr. Kucinich. Well, we would like to hear from you about 
those fundamental changes, which of course would change your 
level of analysis. So just to say there's fundamental changes 
begs a lot more questions. The committee is going to send you a 
note that would give you a chance to elaborate on that.
    I want to thank all of you for being here. Is anyone on the 
staff here from the Office of National Drug Policy? Good. I'm 
glad that you're here so you can take notes back and discuss 
some of the testimony.
    And so I want to thank Director Kerlikowske and his staff 
for being present, as well as the other witnesses who are here. 
We want to continue to engage you and your expertise on these 
matters as we move to craft a sensible national drug policy.
    This is the Domestic Policy Subcommittee. I'm Dennis 
Kucinich of Ohio, Chairman. We are the Committee on Oversight 
and Government Reform. Today's hearing has concerned the Office 
of National Drug Control Policy and the fiscal year 2010 
National Drug Control Budget and the policy priorities of the 
national drug control policy under the new administration. Our 
committee will maintain--subcommittee will maintain an ongoing 
jurisdiction in this matter, and we appreciate all of you 
participating and we'll be talking again.
    Thank you very much. This meeting stands adjourned.
    [Whereupon, at 5 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T5545.221

[GRAPHIC] [TIFF OMITTED] T5545.222

[GRAPHIC] [TIFF OMITTED] T5545.223

[GRAPHIC] [TIFF OMITTED] T5545.224

[GRAPHIC] [TIFF OMITTED] T5545.225

[GRAPHIC] [TIFF OMITTED] T5545.226

[GRAPHIC] [TIFF OMITTED] T5545.227

[GRAPHIC] [TIFF OMITTED] T5545.228

[GRAPHIC] [TIFF OMITTED] T5545.229

[GRAPHIC] [TIFF OMITTED] T5545.230

[GRAPHIC] [TIFF OMITTED] T5545.231

[GRAPHIC] [TIFF OMITTED] T5545.232

[GRAPHIC] [TIFF OMITTED] T5545.233

[GRAPHIC] [TIFF OMITTED] T5545.234

[GRAPHIC] [TIFF OMITTED] T5545.235

[GRAPHIC] [TIFF OMITTED] T5545.236

[GRAPHIC] [TIFF OMITTED] T5545.237

[GRAPHIC] [TIFF OMITTED] T5545.238

[GRAPHIC] [TIFF OMITTED] T5545.239

[GRAPHIC] [TIFF OMITTED] T5545.240

[GRAPHIC] [TIFF OMITTED] T5545.241

[GRAPHIC] [TIFF OMITTED] T5545.242

[GRAPHIC] [TIFF OMITTED] T5545.243

[GRAPHIC] [TIFF OMITTED] T5545.244

[GRAPHIC] [TIFF OMITTED] T5545.245

[GRAPHIC] [TIFF OMITTED] T5545.246

[GRAPHIC] [TIFF OMITTED] T5545.247

[GRAPHIC] [TIFF OMITTED] T5545.248

[GRAPHIC] [TIFF OMITTED] T5545.249

[GRAPHIC] [TIFF OMITTED] T5545.250

[GRAPHIC] [TIFF OMITTED] T5545.251

[GRAPHIC] [TIFF OMITTED] T5545.252

[GRAPHIC] [TIFF OMITTED] T5545.253

[GRAPHIC] [TIFF OMITTED] T5545.254

[GRAPHIC] [TIFF OMITTED] T5545.255

[GRAPHIC] [TIFF OMITTED] T5545.256

[GRAPHIC] [TIFF OMITTED] T5545.257

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
